<html>
<title> - ASSESSING THE CONSEQUENCES OF THE FAILED STATE OF SOMALIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





       ASSESSING THE CONSEQUENCES OF THE FAILED STATE OF SOMALIA

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 2011

                               __________

                           Serial No. 112-99

                               __________

        Printed for the use of the Committee on Foreign Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
67-305PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                 EDWARD R. ROYCE, California, Chairman
TED POE, Texas                       BRAD SHERMAN, California
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
BILL JOHNSON, Ohio                   GERALD E. CONNOLLY, Virginia
TIM GRIFFIN, Arkansas                BRIAN HIGGINS, New York
ANN MARIE BUERKLE, New York          ALLYSON SCHWARTZ, Pennsylvania
RENEE ELLMERS, North Carolina













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Y. Yamamoto, Principal Deputy Assistant 
  Secretary, Bureau of African Affairs, U.S. Department of State.     8
The Honorable Nancy Lindborg, Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Affairs, U.S. Agency for 
  International Development......................................    17
Reuben Brigety, Ph.D., Deputy Assistant Secretary, Bureau of 
  Population, Refugees and Migration, U.S. Department of State...    25
J. Peter Pham, Ph.D., director, Michael S. Ansari Africa Center, 
  Atlantic Council...............................................    37
Ms. Bronwyn Bruton, fellow, One Earth Future Foundation..........    52
Martin Murphy, Ph.D., visiting fellow, Corbett Centre for 
  Maritime Policy, King's College, London........................    62
David H. Shinn, Ph.D., adjunct professor, Elliott School of 
  International Affairs, George Washington University............    72

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Y. Yamamoto: Prepared statement.............    12
The Honorable Nancy Lindborg: Prepared statement.................    20
Reuben Brigety, Ph.D.: Prepared statement........................    28
J. Peter Pham, Ph.D.: Prepared statement.........................    40
Ms. Bronwyn Bruton: Prepared statement...........................    54
Martin Murphy, Ph.D.: Prepared statement.........................    64
David H. Shinn, Ph.D.: Prepared statement........................    74

                                APPENDIX

Hearing notice...................................................    96
Hearing minutes..................................................    97
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    98
Written responses from the Honorable Donald Y. Yamamoto to 
  questions submitted for the record by the Honorable Russ 
  Carnahan, a Representative in Congress from the State of 
  Missouri.......................................................   100

 
       ASSESSING THE CONSEQUENCES OF THE FAILED STATE OF SOMALIA

                              ----------                              


                         THURSDAY, JULY 7, 2011

      House of Representatives,            
         Subcommittee on Africa, Global            
              Health, and Human Rights, and        
                     Subcommittee on Terrorism,    
                           Nonproliferation, and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:30 p.m., in 
room 2212 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
afternoon, everyone. We are holding today's hearing for the 
purpose of examining U.S. policy regarding the failed state of 
Somalia, the possibility of recognizing breakaway areas such as 
Somaliland, and the continuing problem of Somali piracy around 
which the Obama administration has built a program.
    Somalia's instability has encouraged other criminal 
activity beyond its borders, endangering the stability of the 
entire Horn of Africa.
    Somalia once again heads the annual list of failed states 
in the current issue of Foreign Policy Magazine. This eastern 
African country has held that dubious distinction for the past 
4 years. Sudan, Chad, Zimbabwe, and the Democratic Republic of 
the Congo all have experienced horrific conditions during this 
period, but none of them could overtake Somalia at the top of 
the list of the world's failed states.
    Since the fall of President Siad Barre in 1991, the United 
States has been involved in addressing the consequences of 
Somalia having no functioning government in Mogadishu that 
effectively rules the entire country. This lack of governance 
has resulted in Somalia being engaged in a chaotic civil war 
that has abetted the growth of Islamic fundamentalism and 
piracy.
    Humanitarian, political and security conditions continue to 
deteriorate across south central Somalia. In the past 2 years, 
more than 22,000 civilians have been killed, an estimated 1.1 
million people displaced, and at least 476,000 Somalis have 
fled to neighboring countries.
    Somalia is currently experiencing what is considered the 
worst drought in the Horn of Africa since the 1950s. As a 
result of this drought, and the continuing conflict, as Nancy 
Lindborg, Assistant Secretary for USAID's Bureau of Democracy, 
Conflict, and Humanitarian Assistance will testify today, some 
2.85 million Somalis are in need of humanitarian aid.
    Doctor Reuben Brigety, Deputy Assistant Secretary of State 
for the Bureau of Population, Refugee and Migration, will 
testify that Somalis comprise the largest refugee population in 
Africa. That represents more than 750,000 people in the greater 
Horn of Africa region, 120,000 of whom have arrived in refugee 
camps in the region since January of this year.
    In 2003, young leaders of al-Ittihad, a radical Islamic 
group that the Bush administration added to its list of 
terrorist organization, formed the organization known as al-
Shabaab.
    The primary objective of this group was to establish a 
greater Somalia under Sharia. Since 2007, al-Shabaab has 
increasingly controlled territory in Somalia, and by late 2008 
the Transitional Federal Government, or TFG, has lost control 
of most of south central Somalia to insurgent groups.
    U.S. officials are concerned that al-Qaeda and its allies 
in east Africa continue to pose serious threats. Al-Qaeda poses 
a direct threat against U.S. interests and allies in east 
Africa.
    While al-Shabaab appears more focused at this point on 
carrying out attacks against Somali citizens, the TFG, and 
African Union peacekeeping forces in Somalia, it has, however, 
threatened to attack neighboring countries, including Ethiopia 
and Kenya.
    For far too long, Somalia has been a cancer on the Horn of 
Africa, and elsewhere on the continent. Criminals from Somalia 
have not only plagued surrounding countries, but have been 
reportedly involved in drug and human trafficking as far south 
as South Africa.
    However, the most serious involvement of Somalia in 
international criminal activity is, by far, piracy. Pirate 
attacks in the waters off Somalia, and off the Horn of Africa, 
including those on U.S. flag vessels, have brought renewed 
international attention to the long-standing problem of 
maritime piracy.
    According to the International Maritime Bureau, at least 
219 attacks occurred in the region in 2010, with 49 successful 
hijackings. Somali pirates have attacked ships in the Gulf of 
Aden, along Somalia's eastern coastline, and outward into the 
Indian Ocean.
    Using increasingly sophisticated tactics, these pirates now 
operate as far east as the Maldives in good weather, and as far 
south as the Mozambique Channel.
    Somalia's pirate economy has grown substantially in the 
past 2 years, with ransoms now averaging more than $5 million. 
The annual cost of piracy to the global economy ranges from 
some $7-12 billion, by some estimates.
    Two years ago, Secretary of State Hillary Clinton announced 
a four part plan to combat Somali piracy that includes building 
Somali capacity and will to rein in the pirates, coordination 
with the International Contact Group, and encouragement of 
cooperation between governments and shipping companies in 
defending vessels against Somali pirates.
    Yet the threat posed by Somalis is not confined to their 
territory or surrounding waters. In recent years, dozens of 
young Somalis, many of them from the Minneapolis area, have 
left the United States to return to Somalia to fight with al-
Shabaab.
    On August 5th, 2010, more than a dozen Somali-Americans, 
permanent residents, were arrested. Attorney General Eric 
Holder announced that 14 people were being charged with 
providing support for al-Shabaab. Two indictments unsealed in 
Minnesota stated that Amina Farah Ali and Hawo Mohamed Hassan 
raised funds for al-Shabaab, detailing 12 money transfers in 
2008 and 2009.
    The danger to America posed by al-Shabaab and its 
supporters in this country continues to be very serious. In his 
nomination hearing to become Secretary of Defense last month, 
CIA Director Leon Panetta noted that al-Shabaab's threat ``to 
the U.S. homeland is on the rise.'' Mr. Panetta also expressed 
concern that as al-Qaeda leadership in Pakistan comes under 
pressure, that it is not able to find a safe haven in Somalia.
    Since the fall of the last national government in Somalia 
in 1991, Somaliland and Puntland, both now autonomous areas of 
Somalia, have been the only areas with effective governance.
    Somaliland seeks international recognition, while Puntland 
currently does not. The question of whether the United States 
and the international community fully recognizes Somaliland or 
supports its eventual integration into a greater Somalia at 
some future point requires ongoing examination and discussion.
    Consequently, today's hearing offers a valuable opportunity 
to examine U.S. policy on a variety of issues involving 
Somalia.
    I would like to now turn to the ranking member, Mr. Payne, 
for any comments he might have.
    Mr. Payne. Thank you very much. Let me thank you and Mr. 
Royce for calling this very important joint hearing on 
assessing the consequences of the failed state of Somalia. And 
it is a pleasure to see my good friend Mr. Royce back, who 
chaired the Africa Subcommittee at some point in the past, and 
has maintained a strong interest, as has Congressman Smith.
    So it is a pleasure to be here at this very important 
hearing. Unfortunately, I will have to leave a few minutes 
before 2 o'clock. I have been invited to be a part of the 
Presidential Delegation that will celebrate the new state of 
South Sudan, and must leave in an hour or so to Juba to be a 
part of that great achievement.
    But I will stay as long as I can, and I certainly look 
forward to your insights into the challenges facing Somalia, 
witnesses here, and how the United States can best address the 
root causes of these challenges.
    And let me also say that I really commend our witnesses, 
all of whom have distinguished backgrounds in dealing with 
Somalia and other difficult places in the world, especially the 
Honorable Donald Yamamoto, who has spent so much time in the 
area and has been responsible for so many achievements that we 
have seen in the very troubled parts of the world where he has 
served.
    I have had a long history of engagement with Somalia. My 
most recent trip to Mogadishu in April 2009 gained 
international attention because of the mortar attack on my 
plane as I left Mogadishu.
    But that was not my first visit to Mogadishu, nor was it 
the first attack on a plane that I was boarding. The first 
happening in early 1992, when I attended--and the plane was 
fired on as we were getting ready to leave Mogadishu, but was 
not airborne, as was the recent attack in 2009. Of course, with 
my good luck, they didn't shoot straight, and therefore I am 
here to give testimony.
    I first traveled to Mogadishu in the summer of 1993, just 
following the killing of the Pakistani peacekeepers. That was 2 
years after Siad Barre had been overturned, and the country had 
devolved into a state of lawlessness and warfare.
    You may recall the United States and other U.N.-related 
countries went to see that the children could get the food that 
was being sent to Somalia, but the distribution was being 
prevented by the warlords. And there was food there, but 
children were dying because the warlords would not allow the 
food to be distributed.
    And so my first trip was then and I returned back again in 
late '93, because I am from the State of New Jersey. We have a 
large number of pharmaceutical corporations, and I asked them 
if they would participate in a pharmaceutical drive that UNICEF 
co-sponsored with me, to provide medications for children to 
help in the situation, since the children were suffering so 
much.
    And we had the 100 percent cooperation from the New Jersey 
pharmaceuticals to provide the medications that we needed. And 
as a matter of fact, in my recent trip 2 years ago it was noted 
by some of the participants that remembered the pharmaceutical 
drive that brought millions of dollars of donated products to 
the children of Somalia.
    After leaving Mogadishu on my first trip in '93, I then 
went to one of the largest Somali refugee camps in Kenya. The 
camp was even larger than the Dadaab camp that we talk about 
today, which exists in Kenya, which I have also visited several 
times, most recently a year or so ago.
    The refugee situation of Somalis throughout the region has 
always been a very serious question and problem for the 
surrounding countries. The people continue to suffer in these 
rough conditions, but the spirit of the Somali people has 
always impressed me.
    Throughout the toughest times, Somalis remain hopeful, and 
find ways to run a business, to make the best of a situation in 
other ways. And I greatly admire their fortitude and stick-to-
it-iveness, and even creativeness, really creating a new 
industry.
    As we know, about 4 years ago, actually back 4 years 
following my '93 trip, in 1997, I went to Hargeisa for the 
first time. I met with former President of Somaliland--and we 
met also recently with the current President, Silanyo, most 
recently 1 year ago in Nairobi, before the elections. And 
speaking by phone to him recently--I was the original sponsor 
of a resolution on Somaliland in 1990, which called on the 
United States to provide assistance to--and give Somaliland 
observer status at the United Nations, and to recognize their 
accomplishments.
    As you know, Somaliland, Puntland, and Mogadishu Somalia 
were all controlled by different colonial powers, and I think 
that the reason that some have succeeded--for example, 
Somaliland--is because some colonial powers gave more autonomy 
to the locals, and provided them with the opportunity to 
govern, whereas in Mogadishu there was very little of that. 
This is the only resolution to be introduced in Congress that 
focused on Somaliland in two decades, at that time.
    I also met with President Farole of Puntland several times. 
He testified at a hearing I chaired on Somalia in 2009, where I 
encouraged the leaders of Somaliland, Puntland, and Mogadishu 
to band together for the future of Somalia as a whole.
    Finally, it was in April 2009 that I travelled to Mogadishu 
after all the violence and upheaval that had occurred during 
the Ethiopian invasion. I met with President Sheikh, Sharif 
Sheikh Ahmed, ministers, journalists, and a prominent coalition 
of women's organizations who were very, very active at that 
time in Mogadishu. These were things that we did not hear 
about, but that were going on in spite of the violence.
    As a matter of fact, I was there the day following the U.S. 
Navy SEALs taking down three Somali pirates, and of course I 
was asked at a press conference by al-Jazeera what I thought 
about this.
    And I made it very clear that piracy is illegal, that the 
United States of America would not tolerate the intrusion on a 
U.S. ship, and that I totally supported President Obama and the 
U.S. Navy SEALs in the taking down of the three Somali pirates. 
I think that may have had something to do with al-Shabaab 
taking a shot at my plane when I left.
    In 2009, I introduced a resolution calling for the 
recognition of the Transitional Federal Government, the TFG, by 
the U.S., greater involvement, greater engagement on the 
political and humanitarian crisis, and for the establishment of 
a diplomatic presence in Mogadishu once conditions improved.
    As you know, the TFG remains a weak government, but despite 
recent shake-ups there are glimmers of hope. Last month, 
President Ahmed and Speaker of Parliament Sharif agreed to hold 
elections by August 20th, 2012. It was also decided that a new 
Prime Minister would be appointed.
    The TFG is planning a conference in Mogadishu, sponsored by 
the U.N., to bring together all of the Somali stakeholders. It 
is unclear whether Somaliland officials will attend. President 
Ahmed must be given support as he attempts to increase 
dialogue, promote stability, and fight off al-Shabaab, which 
continues to wreak havoc on the population.
    As you know, over the past several years more than 22,000 
civilians have been attacked, an estimated 1.1 million people 
displaced, 476,000 Somalis have fled to neighboring countries.
    This is simply unconscionable. Many people in Washington 
rightfully focus on the criminal aspects of piracy. I spoke 
with Secretary Clinton while travelling with her in Nairobi 
when she met with President Sharif, and she expressed the view 
that piracy was a symptom and not a cause of Somalia's problem.
    We need to work on that strategy announced in October, the 
Dual Track strategy, which we will hear about. I think it's 
something that needs to be discussed more. And just in 
conclusion, while the State Department has stated that it will 
not recognize Somaliland, State has commended the progress and 
stability both of Somaliland and Puntland in what they have 
achieved. This broadening of inclusion will allow a more 
flexible and effective dialogue.
    We have questions that we will be asking the panelists 
here, but in deference to time I will just simply conclude that 
we do have a problem with that one fourth of the country's 
population is either refugee or internally displaced. This 
year, nearly 100,000 people have fled to neighboring countries. 
20,000 of them did so just 2 weeks' period ago, because of the 
drought situation.
    And so I look forward to hearing from our witnesses. And 
with that, I will yield back the balance of my time.
    Mr. Smith. Thank you very much, Mr. Payne. I would like to 
yield to my co-chairman of this hearing, and a good friend, the 
chairman of the subcommittee, Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman. I too held the gavel of 
the Africa Subcommittee once. I just wanted to say, in working 
with Don Payne in that capacity, over those years, his 
willingness to speak out was always very impressive. And I know 
he has to leave at some time today to speak out in terms of the 
situation in South Sudan, at a meeting there.
    But we were actually on a codel in Africa when we got the 
word that Don had done two things. One, he'd had a press 
conference. And minutes later, his plane was mortared as he was 
flying out of town.
    But it is because Don Payne was willing and has been 
willing to speak out, and because of you, Mr. Chairman, that we 
have got some light on this issue.
    And it is an issue, this situation in Somalia, that is not 
only a humanitarian crisis, it is also, frankly, a national 
security threat. And that is the aspect of it--I chair the 
Terrorism Subcommittee. This is the aspect of it that the State 
Department has been talking to us about, and the Defense 
Department.
    And this is something that we are going to look at today--
because Somalia has been a failed state for an awfully long 
period of time. But nowhere are the consequences of Somalia 
more evident than when it comes to international terrorism and 
the threat from al-Shabaab, which is, as we designate it, a 
foreign terrorist organization.
    And in the past few years, al-Shabaab threat, of course, 
has grown dramatically to the U.S. We have seen in the theater 
of Somalia, the roadside bombs, the suicide blasts that come 
out of this organization. Militant compounds resemble, as the 
press reports it, ``Pakistan-style terror training camps.''
    And because of the influx of foreign fighters into this 
area, the neighborhoods around Mogadishu are referenced by 
locals there as ``Little Afghanistan.'' A year ago, al-Shabaab 
conducted its first attacks outside of Somalia. They killed 76 
people, including one American, in Kampala, Uganda.
    So there is a growing concern that al-Shabaab leaders are 
striving to strike targets, not just beyond Somalia now, but 
beyond Africa. A European plot was recently uncovered. It was 
in the works, and it was uncovered.
    So links between al-Shabaab and al-Qaeda in the Arabian 
Peninsula, the most active of all of the al-Qaeda franchises, 
are becoming clearer and clearer to us in the United States. 
They are communicating more about operations. They are working 
together on training. They are working together on tactics.
    The bomb-making capability that al-Qaeda has, the expertise 
that they have there, is being combined with al-Shabaab's 
recruits. And these recruits frequently have western passports. 
Many of them have U.S. passports. This is quite a deadly 
combination.
    And that is why, last month, then-CIA Director Leon Panetta 
called al-Shabaab's threat to the U.S. homeland, in his words, 
``significant and on the rise.''
    U.S. forces have gone on the offensive, of course, 
targeting al-Shabaab's leaders from the sky. But we should have 
a diplomatic attack as well, and that is where I would like to 
focus my attention here.
    We should target al-Shabaab's outside source of support. 
The Government of Eritrea's support for al-Shabaab is well-
documented.
    Assistant Secretary for African Affairs Johnnie Carson 
testified to Congress about Eritrea's supply of weapons to 
terrorists inside Somalia. The U.N. Security Council, acting at 
the urging of African neighbors, passed sanctions against 
Eritrea, demanding that the country--and I am going to read 
from the sanctions here--``cease arming, cease training and 
equipping'' al-Shabaab.
    With al-Shabaab under pressure, it is time to tackle its 
state sponsors, its state supporters, before this menace 
reaches the United States. We must have an honest recognition 
of the destructive role Eritrea is playing in the region, and 
designate it as a state sponsor of terrorism.
    I yield back, Mr. Chairman.
    Mr. Smith. Chairman Royce, thank you very much. I 
understand Mr. Connolly has to leave, but I yield 1 minute to 
my friend from Virginia.
    Mr. Connolly. Thank you very much, Mr. Chairman. And thank 
you, Mr. Payne and Mr. Royce, for holding this hearing.
    In picking up sort of where Mr. Royce left off, the 
inherent instability that has long dominated Somalia as a 
failed state has spillover effects that certainly affect the 
United States, national security, the shipping lanes off of the 
Gulf of Aden, and I think are of deep concern.
    I am particularly interested in this hearing in hearing the 
views of our panelists on the piracy aspect of this 
instability. There are lots of aspects, but we are seeing 
pirates who are more emboldened. It is a cash business. They 
are more and more successful in ransoming numerous ships.
    That is a critical shipping lane that simply has to be 
secured. And in American history, going back to Thomas 
Jefferson, we have always had an interest in that part of the 
world and putting an end to piracy. Here we are, over 200 years 
later, dealing with something similar.
    And so I would be very interested in hearing what you think 
our options are or should be, and what steps we can take to 
further enhance our capability to deter piracy in that part of 
the world.
    Thank you, Mr. Chairman.
    Mr. Smith. Mr. Connolly, thank you very much. Ms. Bass?
    Ms. Bass. Just very briefly, Mr. Chair. As Somalia 
continues to receive a rating of a failed country, our country 
must continue to remain active and expand our diplomatic 
commitment and support to restoring Somalia.
    And once again, I appreciate your leadership in this 
matter. Thank you.
    Mr. Smith. Ms. Bass, thank you very much. I would like to 
now introduce our very distinguished panel, beginning with 
Ambassador Donald Yamamoto. Ambassador Yamamoto is no stranger 
to the Africa Subcommittee, having testified before us in March 
at a hearing on the Democratic Republic of the Congo.
    He has served since 2009 as Principal Deputy Assistant 
Secretary for the Bureau of African Affairs of the Department 
of State. His prior assignments included serving as U.S. 
Ambassador to Ethiopia from November of '06 to July 2009, and 
as Deputy Assistant Secretary of State in the Bureau of African 
Affairs from '03 to '06.
    We will then hear from Nancy Lindborg, who is the Assistant 
Administrator for the Bureau for Democracy, Conflict, and 
Humanitarian Assistance at USAID. She has previously spent 14 
years as president of Mercy Corps, where she focused on 
international relief and development during her time with Mercy 
Corps.
    Nancy Lindborg also served in a number of positions in non-
governmental organizations, and in an advisory capacity to 
government agencies, where she worked on issues related to 
foreign relations and foreign assistance.
    We have full bios, which will be made a part of the record, 
because you are all very accomplished people.
    We will then hear from Dr. Reuben Brigety, who is currently 
serving as Deputy Assistant Secretary of State for the Bureau 
of Population, Refugees, and Migration at State. In this 
capacity, he supervises U.S. refugee programs in Africa, 
manages U.S. humanitarian diplomacy with major international 
partners, and oversees the development of international 
migration policy.
    He previously worked for Human Rights Watch, and has been 
an active duty U.S. Naval officer. He recently returned from 
East Africa, where he worked on the ground with Somali 
refugees, and will be returning shortly to that area.
    Ambassador Yamamoto, please proceed.

STATEMENT OF THE HONORABLE DONALD Y. YAMAMOTO, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. Yamamoto. Thank you very much, Chairman Smith, Ranking 
Member Payne, and Chairman Royce, and distinguished members of 
this committee. And I wanted to say especially, thank you very 
much Mr. Chairman and to you all for holding this very 
important hearing, and also for your very kind words for us.
    The problems of Somalia are not isolated, and the solutions 
to them are neither easy nor one-dimensional. There are signs 
of progress and improvement to fortify our outlook and 
encourage U.S. efforts. Most recently and significantly, Somali 
National Security Forces under the control of the Transitional 
Federal Government killed al-Qaeda terrorist Harun Fazul when 
the car he was in ran a checkpoint in Mogadishu.
    His death brings a sense of relief to the victims and their 
families of the 1998 Embassy bombings in Nairobi and in Dar.
    In October 2010, Assistant Secretary Carson announced the 
Dual Track approach to Somalia after careful consultation and 
review, and also listening to your advice, from this committee 
and others, on the approach to Somalia. Taking into 
consideration Somalia's past and present, as well as its 
challenges and strengths, we continue to support the Djibouti 
Peace Process, the Transitional Federal Government, its 
National Security Forces, and the African Union Mission to 
Somalia, or AMISOM.
    However, we recognized there are large pockets of stability 
in Somalia that merited greater U.S. engagement, and have 
broadened our outreach to include greater engagement with 
Somaliland, Puntland, and regional and local anti-al-Shabaab 
groups throughout south and central Somalia.
    We recognize the need to encourage grassroots support for 
stability in Somalia, and are reaching out to Diaspora 
communities and civil society to foster dialogue and peaceful 
reconciliation.
    In addition, we will continue to do everything we can to 
provide urgently needed humanitarian assistance. Thanks to the 
dedication and sacrifice of AMISOM and TFG Forces, al-Shabaab 
can no longer claim control of Mogadishu or free rein to 
operate in significant portions of the city.
    Since 2007, the United States has supported this 
development by obligating approximately $258 million of support 
to AMISOM's training and logistical needs, as well as 
approximately $85 million to support and build the capacity of 
TFG forces.
    Over the next year, we will support new AMISOM troop 
contingents, as well as TFG and its needs for training, 
equipping, and logistical support. We will continue to focus on 
supporting the TFG's political progress over the course of the 
next year.
    After 5 months of political infighting relating to the 
TFG's tenure coming to a close in August 2011, TFG President 
Sheikh Sharif and Speaker of Parliament Sharif Hassan co-signed 
the Kampala Accord on June 9th, and rededicated themselves to 
finding an end to the transition period that has been in place 
since 2004.
    Ugandan President Museveni and U.N. Special Rep Augustine 
Mahiga witnessed the agreement, with President Museveni serving 
as its guarantor.
    Under the agreement, the TFG recommitted itself to the 
Djibouti Peace Process, and the Transitional Federal Charter, 
to completing a set of transitional tasks to be monitored by 
the international community, to the reform of the Parliament, 
and to holding elections for the President and Speaker by 
August 2012.
    Under the Kampala Accord, the TFG appointed and confirmed 
Prime Minister Abdiweli Mohamed Ali on June 28th. The Kampala 
Accord is a sign that the TFG leadership realizes that neither 
the Somali people nor the international community have the 
patience to continue to accept incessant political infighting 
that serves no purpose other than maintaining access to the 
perks of office and influence for certain individuals.
    We and our international partners, under the Kampala 
Accord, will be pushing for timeliness, benchmarks over the 
next year, including completion of a national constitution, 
revenue transparency and accountability, meaningful engagement 
with Puntland, Galmuduug, Ahlu Sunna, ASWJ, and other Somalia 
stakeholders.
    We have expanded our diplomatic outreach with these 
regional authorities and partners, and have travelled to 
Hargeisa five times. We advocate for representation from the 
regions in conferences and other events, such as the U.N.'s 
counter-piracy focused mechanisms known as the Kampala Process, 
and the U.N.'s consultation in April, which focused on ending 
the transition, in the Joint Security Committee.
    The interaction between the U.S. and Somali interlocutors 
is critical as we work to advance peace and security throughout 
Somalia. We are reviewing how best to adapt our travel policy 
for Somalia to more robustly execute our Dual Track approach.
    The security of U.S. personnel is of paramount importance 
when considering travel inside Somalia, and we will not shrink 
from this obligation.
    The current budget environment will have an impact on our 
ability to effect positive changes in Somalia over the near- to 
mid-term. Demands for support to AMISOM troop contingents close 
to deployment and the needs of the fledgling TFG will continue 
for some time.
    On the development and peacebuilding side, in FY2011 
Somalia received approximately $25 million in development 
support to assist our Dual Track approach. We are also 
providing $48 million in humanitarian assistance this year, as 
well as $8.3 million for humanitarian assistance for those who 
have fled Somalia.
    Even in the resource-constrained budget environment, the 
United States Government continues to do as much as possible to 
promote our core goal of building a peaceful and secure 
Somalia.
    During 2011, we have used funding to assist Somalis in 
clearing the streets of Mogadishu of garbage and sand, provided 
streetlights in Mogadishu, and provided technical assistance to 
the Ministry of Finance to combat corruption.
    The increasing piracy problem off the coast of Somalia 
stems from years of instability, lack of governance, and 
economic fragility on land. The tragic death of four innocent 
Americans this past February was tragic, and provided a sober 
demonstration of the need to do more to address this problem.
    My colleagues across the interagency, including in State's 
Bureau of Political and Military Affairs at the Department of 
Defense, have been at the forefront of the U.S. Government's 
counter-piracy efforts. We must also work with Somali 
authorities and other regional states to enhance their capacity 
to prosecute suspected pirates and imprison those convicted.
    Internationally, more focus should be placed on tracing 
financial flows in order to determine who benefits most from 
piracy, both within Somalia as well as externally. Though these 
efforts take place in the context of other challenges, we will 
continue to support efforts aimed at reducing the piracy 
threat.
    Al-Shabaab and its relationship to al-Qaeda is a 
significant concern for the United States and its partners in 
the region. With sustained military pressure from the TFG 
National Security Force and AMISOM, al-Shabaab's hold on 
Mogadishu has dramatically decreased.
    The opening of additional fronts in Gedo and the middle and 
lower Juba region last February has also placed additional 
pressure on al-Shabaab's ability to hold these areas. As more 
areas escape al-Shabaab's control, the challenge is for Somalis 
to put into place effective administrations capable of 
providing governance and services in order to prevent al-
Shabaab from returning.
    While we see signs of al-Shabaab's control lessening in the 
western region of Somalia and in Mogadishu, we remain strongly 
concerned about the impact on Somalia and the region.
    We continue to monitor events in Somalia, including the 
influence of al-Qaeda on senior al-Shabaab leadership. However, 
as an organization, al-Shabaab includes multiple factions with 
competing objectives, and has lost significant areas of 
territorial control in the areas of south and central Somalia. 
Al-Shabaab's leadership is increasingly fractured and divided, 
with questionable support from the Somali people in many areas.
    Somalia's instability is a product of generations of 
neglect and corruption, but a solution will be the product of 
generations of concerted focus, legitimate engagement, and 
expectations of results. We will continue to focus efforts on 
Somalia in ways that grapple with its challenges effectively 
and flexibly.
    So thank you, Mr. Chairman, and I look forward to your 
questions, and those of my colleagues.
    [The prepared statement of Mr. Yamamoto follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Yamamoto, thank you very much for your 
testimony, for your insights.
    Assistant Administrator Lindborg.

     STATEMENT OF THE HONORABLE NANCY LINDBORG, ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN 
       AFFAIRS, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Lindborg. Thank you. Thank you, Chairman Smith, 
Chairman Royce, Ranking Member Payne, and distinguished members 
of the committee. And I particularly wish you a safer journey 
today, Congressman Payne, than your previous ones.
    Thanks very much for this opportunity to testify today on 
the humanitarian crisis of Somalia, and for your continued 
interest and leadership on this issue. I have submitted longer 
testimony for the record, and will just give you a brief----
    Mr. Smith. Without objection, it is made a part of the 
record, and that of all our witnesses.
    Ms. Lindborg. I am sorry, what?
    Mr. Smith. Without objection, your full statement will be 
made a part of the record.
    Ms. Lindborg. Yes.
    Mr. Smith. And all of our witnesses, if you have a longer 
submission, it will also be made a part of the record.
    Ms. Lindborg. Great. Thank you. So today I will give you a 
briefer update on the situation, as well as the U.S. 
Government's assistance to help the 2.85 million people in need 
in Somalia.
    I want to emphasize that although we are focused today on 
Somalia, this really is a regional crisis, with more than 10 
million people in the countries of the Horn, who are all deeply 
connected in an arc of drought, of crop failure, and high 
livestock mortality.
    The crisis is further complicated by the continuing 
conflict in Somalia, and our inability to fully and reliably 
reach more than 1.8 million Somalis, primarily in the south and 
parts of central Somalia, and the outpouring of Somali refugees 
into the drought-stressed areas of Kenya, Ethiopia, and 
Djibouti.
    There, as you know, have been cyclical droughts in the Horn 
for decades, and as a result we have very advanced early 
warning systems that we established and fund, including the 
Famine Early Warning System Network, or FEWS NET, and the Food 
Security and Nutritional Analysis Unit. They continually 
collect data and provide analysis that has enabled us to pre-
position stocks in the region, to target our assistance where 
we can, and to look ahead. And according to FEWS NET, the 
drought that we are currently seeing in the region is the worst 
in the Horn of Africa since the 1950s.
    In Somalia, the combined effect of consecutive seasons of 
poor or failed rainfall, coupled with the conflict, have 
resulted in rising inflation, severe crop failure, very high 
livestock mortality, and significant, even alarming, 
malnutrition rates.
    As a result, there are now 1.46 million Somalis who are 
internally displaced, and taken through the years now, 800,000 
Somali refugees in the greater Horn. It takes, indeed, great 
resilience for the Somalis to continue forward.
    In January 2011, our early warning systems estimated that 
2.4 million people in Somalia were in crisis, and the latest 
data now indicate 2.85 million people are in need of life-
saving assistance. This is a 19 percent increase in 6 months. 
And that means, of the estimated 9.9 million people in Somalia, 
one in four now needs international assistance to survive.
    In May, I traveled to Kenya and Somalia to ensure that we 
are able to respond as fully and responsibly as we are able to 
to this crisis, and also to express the commitment of the 
United States to the people of Somalia during this critical 
period.
    Along with U.S. Special Envoy Ambassador John Yates, I 
traveled to Hargeisa in the semi-autonomous region of 
Somaliland. We met with government officials, as well as local 
and international non-governmental associations while there.
    And we met with President Silanyo, who expressed his 
concern over the failed rains, the loss of livestock, and the 
need for assistance, while also expressing deep thanks to the 
United States for our response and continued assistance.
    I also spoke with the civil society leaders in Somaliland, 
who said that we are seeing the end of the pastoral lifestyle 
as we know it. With the drought and the conflict, continued 
lack of water and pasture, we are seeing nomads migrate 
increasingly into the urban areas, including to parts of 
Somaliland and Puntland, adding strain to an already stressed 
situation.
    The impact of the drought on the people in Somalia is most 
vividly illustrated in the refugee camps in Ethiopia and in 
Kenya. As a result of an inability to get into other parts of 
Somalia, I visited the Dadaab refugee camps in Kenya, and 
talked to several families who had lost all of their livestock 
or sold their land, had no remaining assets, and thus began a 
long walk across Somalia to the Dadaab refugee camps in Kenya.
    In Dadaab, we are now seeing Somali refugee populations 
arriving with global acute malnutrition rates of 30 to 40 
percent. This is more than double the World Health 
Organization's emergency threshold number of 15 percent. And we 
are seeing severe acute malnutrition rates at 23 percent in new 
arrivals. That is seven to eight times higher than the 2 to 3 
percent that is considered alarming.
    We are seeing a similar increase in Ethiopia, with even 
higher malnutrition data, which my colleague, Dr. Brigety, will 
discuss. But let me make this data very simple to remember. One 
out of two Somalis now arriving in Ethiopia is acutely 
malnourished. One out of three arriving in Kenya is acutely 
malnourished.
    Unfortunately in Somalia, we have significant challenges in 
providing humanitarian assistance, primarily in the south and 
central parts of Somalia, due to the presence of armed groups, 
especially al-Shabaab, which is a U.S.-designated foreign 
terrorist organization.
    General insecurity and lawlessness prevents aid workers 
from reliably reaching more than 60 percent of the people in 
Somalia who need life-saving assistance, again primarily in the 
south.
    In January 2010, the World Food Program suspended their 
operations in southern Somalia because of threats and 
unacceptable conditions created by these armed groups, 
particularly al-Shabaab. Many other international NGOs are also 
unable to operate safely in southern Somalia, and this lack of 
access has created a severe, unabated humanitarian crisis and 
contributed to the significant outflow of refugees.
    In order to deliver assistance to these areas where 
possible, we have developed a risk mitigation strategy with an 
emphasis on assuring our assistance reaches those most in need. 
We have put into place basic risk mitigation procedures, risk-
based assessments, and special conditions for our grant 
agreements, and continue to work to ensure our programs in 
Somalia are appropriately and accountably managed and 
monitored, and reaching those areas that we can.
    As a result, we have now provided $40 million in 
humanitarian assistance inside Somalia this fiscal year. We 
have been pre-positioning supplies in the region since FEWS NET 
began warning of the crisis in August 2010.
    We are helping to feed 1.2 million people in the accessible 
areas of Somalia, and treat tens of thousands of severely 
malnourished people in Somalia country-wide. We are providing 
health care, clean water, rehabilitation of basic water 
infrastructure, proper sanitation, hygiene education and 
supplies.
    And we are also working to improve long-term opportunities 
with our development programs, with an emphasis on youth and 
women. We will continue to identify additional opportunities to 
meet the growing and concerning needs in Somalia.
    Just 2 weeks ago, we released 19,000 metric tons of food 
aid from our regionally pre-positioned stocks to support 
general food distribution, supplementary feeding, emergency 
school feeding, and mother and child feeding inside Somalia. To 
help refugees who are fleeing the country, we have provided 
over $76 million in life-saving assistance. Again, Dr. Brigety 
will describe more.
    In early June, we set up a Horn Drought Task Force in the 
region. We have elevated that just this week to a Disaster 
Assistance Response Team, with 20 members in the region.
    Looking ahead, and looking at the most recent data, we 
expect the perilous situation to worsen through the end of this 
year. Given limited labor opportunities, dwindling food stocks, 
sky-high cereal prices, we believe many households will 
continue to experience a severe situation and be unable to put 
food on the table. We will see an increased number of 
households that can no longer meet their food needs in the 
weeks and months ahead.
    As unfortunate as that is, we also expect the situation in 
Somalia to continue to decline, and will look for additional 
ways to provide aid to those in Somalia, while also providing 
assistance for those forced to flee.
    We are coordinating our emergency response programs with 
our ongoing development programs. We have an estimated budget 
of $21 million for 2011 in our development programs, which will 
continue to look at building economic and political stability 
in areas that we can.
    We consider this an extremely grave situation. We thank you 
for your support of our ongoing programs, and thank you for 
holding this important hearing today, as we continue to work 
this issue. Thank you.
    [The prepared statement of Ms. Lindborg follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Assistant Administrator Lindborg, thank you very 
much for your testimony, and for working so hard to meet the 
needs of so many suffering people.
    I would like to now ask Dr. Brigety if he would proceed.

STATEMENT OF REUBEN BRIGETY, PH.D., DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF POPULATION, REFUGEES AND MIGRATION, U.S. DEPARTMENT 
                            OF STATE

    Mr. Brigety. Good afternoon, Chairmen Smith and Royce, 
Ranking Member Payne, and distinguished members of the 
subcommittee. Thank you very much for including me on this 
panel to review the situation of Somali refugees in the Horn of 
Africa, which is one of the consequences of what many have 
called a failed state in Somalia.
    Today we are facing a critical emergency within what is a 
protracted Somali refugee situation dating back to 1988, when 
people in northern Somalia fled to Ethiopia and Djibouti to 
escape attacks by their own government.
    Somalis represent the largest refugee population in Africa, 
with over 750,000 just in the greater Horn of Africa region 
alone. Over 120,000 of those have arrived just since January of 
this year.
    A few weeks ago, Ethiopia opened its sixth camp for Somali 
refugees, and it is already almost full. A seventh camp is 
currently in the works. Djibouti has announced a second camp as 
well, and the international community continues to press Kenya 
to permit expansion of the Dadaab three-camp complex, which is 
home to over 370,000 refugees, almost all of which are Somalis.
    You already may be aware that the Dadaab camps were opened 
some 20 years ago to house about 90,000 Somali refugees, and 
now house over four times as many, making just the camp the 
fourth largest population center in Kenya, and the largest 
refugee camp in the world.
    Even in this overcrowded state, more than 1,000 refugees 
have arrived per day over the past few weeks in search of life-
saving assistance. Indeed, the refugee situation has worsened 
dramatically in the last month, with reported new arrivals in 
June almost double in Ethiopia, and triple in Kenya, from what 
was reported in May.
    Ironically, this may be partly a result of the success in 
pushing back al-Shabaab that Ambassador Yamamoto has 
highlighted, freeing some who could still move to do so, though 
the main contributing factor remains the difficult conditions 
within Somalia.
    From a humanitarian perspective, what is most critical now 
is addressing the desperate and deplorable state of 
malnutrition, which threatens the lives of many newly-arriving 
refugee children.
    They have endured the ravages of ongoing conflict, and 
struggled to survive the consequences of al-Shabaab's 
obstruction of international food aid in wide swathes of south 
central Somalia.
    These new arrivals have faced the latest devastating 
drought, as Assistant Administrator Lindborg noted, a drought 
affecting the entire Horn and rivalling those on record going 
back to the 1950s.
    Having sold all that they have owned to survive, they have 
made the arduous journey, mostly on foot, for days or even 
weeks, to reach safety and humanitarian assistance in camps in 
Kenya and Ethiopia.
    To illustrate the severity of this situation, the 
international humanitarian community considers it an emergency 
when the rate of global acute malnutrition within a population 
exceeds 15 percent. In Ethiopia, as Assistant Administrator 
Lindborg noted, global acute malnutrition rates close to 50 
percent have been reported among newly arriving refugee 
children. In Kenya, global acute malnutrition rates of up to 40 
percent have been reported among newly arriving refugee 
children.
    This situation is substantially worse than when I last 
visited the Dolo Odo refugee camps in Ethiopia in February of 
this year. Newly arriving children are now dying in the refugee 
camp at the rate of two to three children every day.
    During my most recent visit to the region just last week, a 
senior advisor of the Ethiopian Government's refugee agency, 
and a veteran of UNHCR, told me of the condition of near-death 
of many children as they arrive in the camps, some so 
emaciated, and with skin lesions so deep, that you can see 
their bones in their skulls and in their arms through their 
translucent skin.
    In his words, ``People are coming from Somalia to die in 
Ethiopia.'' We must ensure that as many as possible of these 
children are saved through urgent and timely interventions, 
such as emergency therapeutic feeding programs and rapid 
registration to ensure prompt access of refugees to regular 
food distribution.
    Though some of these activities are already underway, the 
level is not yet adequate to meet the considerable needs of the 
population. Given the urgent nature of the situation, I will be 
traveling to the Horn again tomorrow, and plan to visit the 
camps in the southeast of Ethiopia, which are receiving the 
vast majority of new arrivals. And I will be accompanied by our 
Ambassador to Ethiopia, Ambassador Donald Booth.
    Speed is of the essence as we seek to prevent additional 
deaths. And yet, we cannot forget that this, too, is a regional 
crisis that will require the combined efforts of the 
international community, all the more so in that, as my 
colleague Ms. Lindborg testified, this drought disaster is 
putting some 10 million people at risk throughout the Horn.
    The appalling state of Somali refugees is a stark example 
of what the drought is doing to the people of the Horn, and 
emphasizes the importance of a comprehensive response to 
address the needs of all those suffering from this crisis.
    Regrettably, famine experts tell us that the worst of this 
regional drought crisis is still to come in the months before 
the next possible rains this fall.
    My bureau, the State Department's Bureau of Population, 
Refugees and Migration, which supports all refugee protection 
and assistance efforts except for food aid, which is supported 
by my colleagues from USAID's Office of Food for Peace, is in 
the process of programming over $63 million for the Horn, and 
will be providing additional funds next week, when we expect a 
new appeal from the Office of the U.N. High Commissioner for 
Refugees, to which we will be responding.
    There are clearly many challenges still ahead. Countries in 
the Horn are understandably weary of hosting hundreds of 
thousands of refugees. Some, such as Kenya in the early 1990s, 
have seen refugee inflows reach 1,000 per day, and would very 
much want to avoid repeating these experiences.
    Some, such as Yemen, are in great turmoil themselves. 
Events in Sudan could well generate more Sudanese refugees in 
coming months. Security inside much of south central Somalia is 
not conducive to mounting easily successful humanitarian 
operations that might reach those in need where they are.
    For example, I understand that the efforts of the U.N. 
humanitarian team this week to assess conditions and 
humanitarian access in areas along the border of Kenya and 
Ethiopia were derailed by the presence of roadside bombs and 
land mines.
    As a consequence, we must ensure that safe places of asylum 
in the countries neighboring Somalia continue to exist, and 
that refugees can find security as well as life-saving 
assistance.
    We will continue to work with our colleagues in the U.S. 
Government, and with our counterparts in other countries, to 
achieve these goals. We welcome your support, we are grateful 
for it, and I would welcome any questions you may have. Thank 
you very much.
    [The prepared statement of Mr. Brigety follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Dr. Brigety. Let me begin--
we do have a recorded vote, one of the vital and necessary 
distractions that we face during the day. And it will be about 
an hour's worth of voting.
    So I will ask some questions at the outset, rapid-fire, and 
ask my colleagues if we could all ask some questions. And 
hopefully we can get it done that way, and then go to our 
second panel when we return.
    Very quickly. Ms. Lindborg, the unmet food need--obviously, 
you have outlined an absolutely catastrophic situation of 
malnutrition. What is the lack of donor aid? What is the unmet 
need there, dollars and cents? And is there an inability to 
deliver it because of conflicts, just that we can't get the 
security aid or the food aid to the people occupied by al-
Shabaab and the like?
    FEWS NET, obviously, has given us a great insight as to 
what is coming on malnutrition. What are we looking at in terms 
of menacing diseases? We know many diseases are manifesting 
already. Are there others on their way? If you could just go 
through some of those diseases.
    To Dr. Brigety, you mentioned a UNHCR appeal. I was going 
to ask you about that. And if you might touch on what that 
unmet need--what you anticipate the needs will be, so we can 
hopefully meet our very significant obligations from a 
humanitarian point of view.
    And if you could maybe speak briefly about the relative 
security inside and outside, in proximity to the refugee camps. 
We know that camps all over the world are often menaced by 
threats, especially to women. Do you find that with these as 
well?
    And then, Ambassador Yamamoto, on AU peacekeepers. Their 
rules of engagement: Are they robust enough? There are some who 
suggest that their actual presence hurts the TFG's ability to 
rule, primarily because of a Somali aversion to a sense of an 
occupying force, even if that force is benign, as the AU force 
obviously is.
    The resilience of al-Shabaab. Dr. Pham, in his testimony, 
talks about their resilience, their ability to adapt. What is 
our take on that?
    And what is the troop strength, if you want to call them 
troops, terrorist strength, of al-Shabaab? How big is it?
    And are weapons coming through Sudan, Eritrea? And are any 
of those weapons coming from China?
    With regards to the pirates, Dr. Murphy points out in his 
testimony--and others have pointed out in their testimony as 
well--that there needs to be a land solution. And I think that 
is obvious, but if you briefly could touch on that.
    Chairman Royce? We'll do all the questions, so that----
    Mr. Royce. Yes, and I will be very brief as well. Deputy 
Assistant Secretary Yamamoto, if I could ask you this question: 
When the last administration left office, there was an internal 
debate over whether Eritrea should be designated a state 
sponsor of terrorism for its support for al-Shabaab. It didn't 
happen at that time, but just after she left government 
service, former Assistant Secretary Jendayi Frazer wrote a good 
piece in the Wall Street Journal, and the theme was Eritrea 
should be listed as a state sponsor of terrorism.
    We have got U.N. report after U.N. report citing their 
support for al-Shabaab. The case is pretty cut and dry. 
Assistant Secretary Carson testified flat-out that ``the 
Government of Eritrea continues to supply weapons and munitions 
to extremist and terrorist elements.'' We are trying to put 
them on defense.
    I think now is the time to press. We argue here that many 
of these problems can't be solved by military means alone. 
Well, here is a chance for diplomacy to add teeth to this.
    So I put that question to you, and yield to Mr. Payne.
    Mr. Smith. Thank you, Chairman Royce. Mr. Payne?
    Mr. Payne. Thank you very much. I would just like to ask, 
with the 12-month--and anyone can answer it--the 12 months that 
will be used now for elections in Somalia, do you think that 
the TFG will be able to handle it? What do you think the new 
move, with the new Prime Minister, the contention between the 
President and the Prime Minister, do you think we will be able 
to see the TFG be able to put elections on course?
    The strength of the AU forces. Do you feel that they have 
enough forces to contain al-Shabaab, who as you know is getting 
support from al-Qaeda? And do you see whether the government is 
being able to win that battle?
    And finally, on Eritrea. As you know, I was the last Member 
of Congress to visit there, several years ago, and have been 
able to talk to President Isaias. I wonder, in your opinion, as 
we are going to move for sanctions--and I have a lot of respect 
for Congressman Royce's position--do you think that the 
designation--you know, once you get on that terrorist list, 
that is it forever. And that could close off any kind of 
possibility.
    Is there, in your opinion, a last-minute opportunity to see 
whether President Isaias--I mean, the President of Eritrea did 
write President Obama when he first came in, saying that he was 
interested in having some dialogue. Do you think that to shut 
it off totally--that ends it all, which I am not saying, 
Congressman Royce, that--absolutely everything points to the 
fact there should be something done--or do you think a last-
minute shot at attempting to see if the Government of Eritrea 
could be convinced that it should try to cooperate?
    I am still at the point where--I know once that designation 
goes, it stays. I mean, President Mandela just was able to get 
off the terrorist list last year, because they said ANC was a 
terrorist organization in the '60s and '70s and '80s.
    And for a birthday present, we were able to push the 
administration to take the President's administration off the 
terrorist list, just last year. So once you get on that list, 
you are there forever. So I just wondered about your opinion.
    Mr. Smith. Ms. Bass. Ms. Bass, do you have any other 
questions?
    Ms. Lindborg?
    Ms. Lindborg. Thank you. Just to reiterate, as unfortunate 
as it is, we do expect that the situation in Somalia will 
continue to decline, and famine conditions are possible.
    There is a concerted international effort to try to meet 
what are not just food needs, but they are water, clean 
drinking water needs, and the ability of people to access 
supplies that are still available to them.
    We are seeing about a $200-million funding gap, even with 
the $349 million that we along with, primarily, ECHO, Japan, 
UK, and Norway have provided toward the U.N. funding appeal.
    Again, to reiterate, we have currently provided about $48.4 
million. We have more in the pipeline, and we are looking hard 
at how we can responsibly provide that assistance.
    Unfortunately, there is difficulty in reaching nearly 61 
percent of those Somalis who live in the south and parts of 
central Somalia, because of the presence of armed terrorist 
groups and the inability to reliably and safely provide 
assistance.
    In terms of diseases, because of the ongoing programs that 
have been conducted by USAID and others, 93 to 95 percent of 
Somali children that we can reach have received polio 
immunizations, for example, just to show the power of those 
interventions. And we have been able to prevent reoccurrence of 
that.
    What we are most concerned about is--and what we are seeing 
as children come across the border is malnutrition, and 
diseases that are related to lack of sanitation and lack of 
clean drinking water. So respiratory diseases, gastrointestinal 
and malnutrition diseases.
    We are always alert for the possibility of those kinds of 
epidemics that are all-too-frequently common in these 
situations. And thus far, in the camps at least, we have been 
able to address that.
    The concern, of course, is as conditions continue to 
deteriorate in those areas that are difficult to reach.
    Mr. Smith. Thank you. Dr. Brigety?
    Mr. Brigety. Congressman, thank you very much for your 
questions. As you noted, in the interest of time, I will do my 
best to be brief, but I am happy to elaborate in a written 
response, if you would like that.
    With regard to the UNHCR appeal, we do not yet know exactly 
what the size of that shortfall is going to be. The U.N. High 
Commissioner for Refugees, Mr. Antonio Guterres, has publicly 
said that obviously there is a shortfall, not only for the Horn 
but indeed for the entirety of their African program.
    He has directed UNHCR earlier this week to immediately 
obligate $20 million out of their operational reserves to 
respond very, very quickly to the crisis. He is also, I should 
say, traveling to the region, and will be there tomorrow to go 
to the camps in both Ethiopia and Kenya.
    As I mentioned, we anticipate seeing their revised 
emergency appeal probably on Monday. We are prepared to respond 
generously. I suspect that we will respond as we have 
traditionally responded, with about 25 percent of the total of 
that appeal. Obviously, it will depend on exactly what the size 
of it is. But we will be able to let you know as soon as we do.
    With regard to security, camp security is always an issue 
at every refugee camp. I think it is fair to say it is 
particularly an issue in Kenya, and that is true probably for 
two reasons.
    One is the sheer size of the camp. I don't know if you have 
had a chance to visit Dadaab. It is massive. It really, really 
is massive. There are security incidents within the camp with 
not a fair amount of infrequency. The Kenyan Interior Ministry 
does have some guards on the periphery, but it continues to be 
an issue.
    With regard to the camps inside Ethiopia, I think it is 
probably on a comparative basis, security is slightly better. 
But that is largely because it is even more remote than the 
camps in Dadaab are, frankly. And also, the nature of that 
population--it is at least 90 percent women and children. Very 
few men there, in those camps in Ethiopia.
    But that is going to be one of the things that I will be 
looking at really intensely when I go to the region tomorrow.
    Mr. Smith. If you could let us know what you find there, as 
well.
    Mr. Brigety. I will do that.
    Mr. Smith. Thank you, and be safe. Yes?
    Ms. Lindborg. With your permission, Chairman Smith, I would 
just add that, again, because this is a regional crisis, the 
totality of United States assistance in the region is currently 
$360 million.
    And that is just to underscore the stresses that the 
refugees are placing on the drought-affected communities in 
Kenya and Ethiopia as well. So there has been, where we are 
able to reliably reach people throughout the region, a generous 
response from the United States that has been critical, 
critical for saving lives throughout the region.
    Mr. Smith. Thank you. Ambassador Yamamoto.
    Mr. Yamamoto. Congressman, on the AU forces, right now it 
is up to 10,000 troops. They are trying to get to the number 
that we in the United Nations agreed to, which is about 12,000 
troops. They probably will not make that number.
    We are looking at other troop contributing countries from 
west Africa to southern and central, but again we want to say 
that we commend the Ugandans and the Burundians, who are doing 
a tremendous job. And a lot of sacrifices. Since they operation 
started, they have lost 200 troops. And we are trying to do the 
best we can to provide the assistance and support that they 
need.
    As I said, over the last 4 years--and this is 4 years--we 
have given about $258 million. Compared to other operations, 
obviously, it is not a lot of money. But we are trying to do 
the best we can to support the AMISOM as far as training, 
logistical support, and to give them the capacity and 
capability to protect their troops against al-Shabaab.
    The other issue, too, is $85 million to the TFG troops to 
get them trained to capacity so that they can fight the war. 
Ultimately, the AMISOM troops can only do so much, that this 
really has to be a fight, a war, conducted and executed, 
prosecuted by the Somalis themselves. And that is what we are 
trying to do, is to give them the support and the assistance.
    Right now, just something on the piracy. You know, the 
piracy is symptomatic of the instability within Somalia. When I 
was first the Ambassador in Djibouti, we saw the first cargo 
ship being hijacked, and we said, ``That is not a good thing.''
    And so from that point on, we have seen the rates of 
hijackings and hostage-taking grow from about 11 ships, about 
276 hostages, to earlier this year about 53 ships and over 500 
hostages. And that has kind of gone down now, to 17 and 390 
hostages, but that is because of the monsoon season.
    And this increase is taking place at a time when we are 
expanding the international presence of Task Force 150, 151. 
And so what it underscores is that the problem is basically not 
a piracy issue, but reflective of the instability in Somalia.
    And that is an issue that we need to target and to 
confront. As you know, the Secretary of State outlined and 
articulated several points that we need to do, and what we are 
trying to do is to prosecute, and some naval operations, and 
regional capacity-building.
    Looking at prosecution and incarcerations, as you know 
right now, the United States has taken 28 pirates. And of 
those, 17 have been convicted, and the others are still 
awaiting prosecution. The most recent one was, of course, 
Abdiwali, who has been taken to New York City.
    The other issue, too, is that we are looking at best 
practices. We are looking at how we can expand and communicate, 
and also disrupt piracy enterprises.
    And Congressmen Royce and Smith, you had stated quite 
clearly and articulately that we need to look at how we can 
disrupt all the financial assistance that is being accumulated 
by the pirates, and also the assistance coming in from outside 
into the pirates, as well as the arms flows and other issues.
    Going to your questions on the state sponsor of terrorism 
for Eritrea, that is a very difficult question. At the end of 
the last administration, Eritrea was designated as a country of 
concern, and therefore it was a country that we are looking at, 
not only because of its support for rebel groups not only aimed 
against Ethiopia, but also the regional--at Camp Sawa and other 
camps in Eritrea--we are also looking very carefully at also 
the arm flows, but not just Eritrea, but from all countries, in 
all areas.
    And one of the things that we have learned in Somalia is 
that we need to keep out the Eritreans, and all outsiders, and 
to give the Somalis an opportunity to resolve the problems 
themselves. Because ultimately this has to be a Somali approach 
and a Somali solution.
    The SST designation is a difficult one. It is an issue that 
we are discussing. We are trying to get as much evidence 
together, and to discuss this.
    Congressman Payne, you do raise a very cogent argument. The 
last U.S. official to visit Eritrea was----
    Mr. Smith. May I interrupt you, just very briefly? Greg 
Simpkins, our Chief Specialist for African Affairs on the 
subcommittee on the majority side will stay and hear the 
remainder of your comments. We are at zero on the House floor 
in terms of the votes, so I am going to run over.
    If you could respond, Dr. Martin did raise an issue--and 
then go back to your response--about the maritime--the ships at 
sea that are attacked. And talks about restrictive rules of 
engagement. If you could speak to that, as well.
    Because as he points out, being in the citadel is a 
harrowing experience, and he goes into great detail about the 
fact that the seas need to be controlled by the Navy. So if you 
could speak to that.
    I do thank you all for your extraordinary testimony, and 
your work.
    Mr. Yamamoto. As far as the issue on rules of engagement 
for piracy, the International Task Force 151 was set up to 
address the piracy issue. The U.S. Navy, along with probably 
around 24 other countries, have contributed troop ships, around 
48, over 48 ships, to look at an area that is extremely 
expansive and very difficult to monitor.
    And during the non-monsoon seasons, the pirates are able to 
use mother ships to go really far from their bases in Somalia, 
into other areas, the Red Sea, and then the Gulf area, to 
capture ships.
    It is a very difficult task. It is a very tremendous 
problem to get all these mother ships. But I think the rules of 
engagement, as the Secretariat articulated, is to coordinate 
with our allied countries, but also to coordinate with all the 
other countries within the region to address the piracy issue.
    We have talked to, and negotiated with, countries such as 
Mauritius, Seychelles, Tanzania, Ethiopia, Djibouti, and Kenya, 
to--and also Somaliland and Puntland--to look at how we can 
address the capturing of these pirates, how to handle these 
pirates.
    But more important is to work with these countries, as well 
as our international partners, that there has to be assured 
prosecution of all the pirates who are captured, and that they 
have to have assured prosecution, imprisonment, through the 
legal process and procedures.
    Going back to what Congressman Payne had said on the 
Eritrea issue, the last visit by a U.S. official, again, was 
last June 2010. And in that process, our message to President 
Isaias and the Eritrean leadership has been clear, and it has 
been clear ever since.
    It is that we extend a hand of discussion, negotiations, of 
opening, of discussion, of dialogue. But we have not received 
any response from Isaias or his government. In fact, since that 
time, my visa to return to Eritrea remains in the Eritrean 
Embassy, unacted-upon.
    Assistant Secretary Johnnie Carson's visa application has 
remained at the Eritrean Embassy for over a year and a half. 
And so our position is still to engage the Eritreans, to look 
at areas where we can engage with them. But again, the response 
from the Eritreans has been negative.
    Again on the SST, we continue to look at Eritrea on a wide 
variety of areas, from their gold mining factories run by a 
Canadian firm, Nevsun, which is probably producing profits in 
excess of several million dollars for the Eritreans this year, 
and in the future will probably be even more.
    We are looking at the tax collection that they obtain in 
the United States. We look also at the foreign exchange 
reserves that Eritreans send to Eritrea, and say, ``Is this 
according to the U.S. and international financial laws and 
institutions?''
    So everything is being looked at and examined. We have--I 
do not wish to make any statements or comments at this point, 
because those things are still under research. And it is not 
just Eritrea. It is a lot of actors that are in Somalia that we 
are trying to prevent from playing a destructive or non-
constructive role.
    The other question that you asked, one last thing, was that 
again, on the financing et cetera for the African Union and the 
Transitional Federal Government--again, we work very closely 
with the Transitional Government to ensure that they will 
address this 1-year period.
    As you know, the Kampala Accord, which was signed on June 
9th, really resolved a stalemate where we were headed into 
August 2011 without any resolution to the Transitional 
Government.
    And so what we want to do is look at this agreement 
achieved in Kampala that in the next year, how can we push the 
government toward those elections? How can we act on and 
implement the agreements made by the Kampala Accord? Which is 
reform, electoral process, and to remove the TFG. And those are 
areas that we will continue to look at and look closely, not 
only with the TFG and AMISOM, and the United Nations, but also 
the regional states and our other donor countries.
    That is kind of a summary of the efforts that we will make.
    Mr. Simpkins [presiding]. Thank you, Mr. Ambassador. And 
thanks to all the panel. And on behalf of the chairmen, we are 
in recess. Thank you.
    [Whereupon, at 1:52 p.m., the subcommittee recessed, to 
reconvene at 2:47 the same day.]
    Mr. Smith [presiding]. The subcommittees will reconvene and 
consider they are sitting. I would like to now, first of all, 
apologize to our very distinguished witnesses for that long 
delay. There were 13 votes on the House floor, and obviously it 
took some time to complete that business.
    But we will now complete this hearing. Our second panel, I 
welcome to the witness table. Dr. Peter Pham, who is the 
director of the Michael Ansari Africa Center at the Atlantic 
Council in Washington, DC. He is the incumbent vice president 
of the Association for the Study of Middle East and Africa, an 
academic organization which represents more than 1,000 
scholars, and he is editor in chief of the organization's 
Journal of the Middle East and Africa.
    Dr. Pham was the winner of the 2008 Nelson Mandela 
International Prize for African Security and Development. He 
has authored half a dozen book chapters concerning Somali 
piracy, terrorism, and stabilizing fragile states, as well as 
more than 80 articles in various journals, and has been over 
the years a very distinguished witness before our subcommittee. 
And I want to thank you for being here again today.
    We will then hear from Bronwyn Bruton, of the One Earth 
Future Foundation. Ms. Bruton is a democracy and governance 
specialist with extensive field experience in Africa. She has 
worked for the National Endowment for Democracy, USAID, and GAO 
as a 2008/2009 international affairs fellow at the Council on 
Foreign Relations.
    Ms. Bruton offered a series of prominent reports and 
articles on Somalia, and has provided expert commentary on 
Somalia to various media outlets. She has traveled frequently 
to the northern regions of Somalia, and collaborated with 
hundreds of Somali community-based and non-governmental 
organizations. She is currently a fellow at the One Earth 
Future Foundation.
    Then we will hear from Dr. Martin Murphy, who is an 
internationally recognized expert on piracy and unconventional 
conflict at sea.
    He is a visiting fellow at the Corbett Center for Maritime 
Policy Studies at King's College, a research fellow at the 
Center for Foreign Policy Studies, and was a senior fellow at 
the Center for Strategic and Budgetary Assessments between 2008 
and 2010. He has authored a number of books, chapters, and 
articles on Somali piracy, international piracy laws, and 
related topics.
    And finally, we will hear from Dr. David Shinn, who has 
been a professor in the Elliott School of International Affairs 
at George Washington University since 2001.
    Prior to that, he served 37 years in the U.S. Foreign 
Service, and held the following positions, among others: 
Ambassador to Ethiopia, Director of East African Affairs, 
Deputy Director of the Somalia Task Force, Political Officer at 
the U.S. Embassy in Kenya, and Desk Officer for Somalia and 
Djibouti.
    Moreover, he has served as the State Department Coordinator 
for Somalia during the international intervention in the early 
1990s. So thank you, Ambassador, as well for being here, and 
all of you for your patience.
    Dr. Pham, if you could begin your testimony?

STATEMENT OF J. PETER PHAM, PH.D., DIRECTOR, MICHAEL S. ANSARI 
                AFRICA CENTER, ATLANTIC COUNCIL

    Mr. Pham. Thank you, Chairman Smith. Thank you very much 
for this invitation to appear before you today, and to 
contribute to your assessment of the consequences of the failed 
state of Somalia in general, and in particular the policy of 
the United States toward the challenges that arise. I will just 
summarize my prepared testimony, which I have already 
submitted.
    As we meet, the situation in Somalia has reached a critical 
point. Two decades after the collapse of the last entity that 
could be possibly described as a Government of Somalia, and no 
fewer than 14 failed attempts to reconstitute such a 
centralized authority later, the country is still fragmented, 
and is fragmenting into multiple fiefdoms.
    The current Transitional Federal Government, TFG, is 
limping toward the August 20th expiration of its already-
extended mandate with little indication that it has made any 
progress toward the goals that were its reason for being and 
existing.
    And while the Islamist insurgency spearheaded by al-Shabaab 
has suffered a series of setbacks in the last 9 months or so at 
the hands of the African Union Mission in Somalia, to say 
nothing of recent air strikes by unmanned aerial vehicles, 
operated or at least coordinated by U.S. forces, it is far from 
defeated.
    Moreover, even allowing for the most optimistic 
interpretation of recent gains by the Ugandan and Burundian 
peacekeepers fighting in Mogadishu, the fact remains that their 
commanders claim to have secured barely half of the 16 
districts of the city, and the total area under the effective 
control of the AMISOM forces today is actually smaller than 
that which the departing Ethiopian forces relinquished just 2 
years ago.
    Finally, the fate of Yemen is still very much undetermined. 
There is the specter of the existing links between al-Shabaab 
and al-Qaeda in the Arabian peninsula, those links expanding 
and proving an even greater threat to international and 
regional security, to say nothing of the increased threat posed 
by maritime piracy in the waters of the Gulf of Aden between 
the two countries and beyond, as the Greek oil tanker Brillante 
Virtuoso, carrying 1 million barrels of fuel oil, which was set 
ablaze yesterday just 20 miles off the port of Aden after a 
failed pirate attack, attests.
    Unfortunately, compounding its poor political and military 
prospects, Somalia currently also faces environmental 
challenges which only exacerbate the former. In this context, I 
would like to make five points.
    First, rather than being a solution to the challenge of 
state failure in Somalia, the TFG has clearly shown itself to 
be a part of the problem. What we are confronting is not just 
political incompetence, but outright criminality.
    Last year, the U.N. Security Council's Sanctions Moderating 
Group for Somalia documented how senior TFG officials, 
including the Deputy Prime Minister and other members of the 
cabinet, were directly involved in visa fraud, including in one 
case facilitating the travel to Europe by two suspected al-
Shabaab cadres.
    More recently, the TFG's own auditors, reviewing the books 
for the years 2009/2010, revealed that while during the 
relevant period bilateral assistance to the regime totaled 
$75.6 million, only $2.87 million could be accounted for.
    The auditors determined that the balance, more than 96 
percent of international aid, was simply stole, and 
specifically recommended forensic investigations of the Office 
of the President, the Office of the Prime Minister, the 
Ministry of Finance, and the Ministry of Telecommunications.
    Anyway, is it any surprise that such an outfit has had 
little success in rallying even minimal public support behind 
it, much less accomplishing any of the basic tasks which are 
its reason for existence?
    There is perhaps no more telling indicator of the TFG's 
dismal prospects than the fact that no fewer than three 
different western initiatives to train a military force for it 
have recruited and trained and armed more than 9,000 troops, 
yet fewer than 1,000 of these remain loyal.
    Two, AMISOM is neither sustainable as a military operation 
nor viable as a strategy. Despite its recent success in combat 
operations, the African Union force remains limited in the ways 
in which it can accomplish, due to lack of manpower and 
materiel.
    Even if the personnel could be found to bring the force up 
to the new ceiling authorized--and Ambassador Yamamoto 
testified earlier that that was unlikely--it would still be 
beyond delusional to think that a 12,000-strong contingent 
would succeed where infinitely more robust and better-trained 
U.N. forces failed just a little over a decade and a half ago.
    I would add, Mr. Chairman, that our reliance on AMISOM 
causes difficulties for our policy objectives elsewhere in 
Africa. Take, for example, the lamentably ham-fisted way in 
which the regime in Uganda has dealt with political opponents 
in recent months.
    President Museveni knows that as long as the United States 
and other members of the international community insist on 
backing the corrupt and ineffective TFG, American and its 
partners will be constrained insofar as their ability to bring 
any meaningful pressure on him with respect to human rights.
    Third, the resilience of al-Shabaab and other insurgent 
forces should not be underestimated, especially when the TFG 
and AMISOM continually fuel fires of local discontent.
    Fourth, the process of devolution in the one-time Somali 
state continues, and represents a trend which, after more than 
20 years, has become irreversible. Without necessarily 
precluding any future confederal arrangement, it seems a 
foregone conclusion that the political momentum among the 
Somali is moving overwhelmingly in the direction of multiple 
divisions, and against a heavily centralized top-down 
arrangement.
    Fifth, a new approach is desperately needed if the worst 
consequences of Somalia's state failure are to be mitigated. 
Encouragingly, there have been various signs that parts of the 
international community may be finally coming, however 
reluctantly, to this conclusion.
    Last fall, Assistant Secretary Carson announced a second-
track strategy that would include greater engagement with 
government officials from Somaliland and Puntland, with an eye 
to looking to strengthen their capacity both to govern and 
deliver services.
    While the new U.S. policy has yet to be fully worked out, 
to say nothing of receiving adequate resources, it nonetheless 
represents a dramatic and long-overdue shift. The challenge now 
is to be equally creative in developing the appropriate 
vehicles for political, economic, and security engagement with 
the appropriate Somali partners.
    The forthcoming posting of Ambassador James Swan to Nairobi 
as the new coordinator of U.S. efforts on Somalia ought to be 
an occasion for a thorough review of our policy, its 
implementation, and the consequences thereof.
    Certainly, if pragmatism counsels that we must endure 
another year of the TFG's existence for want of a ready 
alternative, then by all means let us ensure that this final 
year is exactly that, and avail ourselves of the time to 
carefully consider alternative paths for achieving what the 
Somali people deserve and our security interests demand.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Pham follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Pham, thank you very much for your testimony 
and your insights.
    Ms. Bruton, the chair recognizes you.

   STATEMENT OF MS. BRONWYN BRUTON, FELLOW, ONE EARTH FUTURE 
                           FOUNDATION

    Ms. Bruton. Thank you, Congressman Smith. I wish to thank 
the subcommittees for inviting me to testify today, and for 
allowing me to contribute to this assessment of the 
consequences of state failure in Somalia.
    My remarks will explore the pitfalls and possible benefits 
of the proposed U.S. engagement with alternative forms of 
governance in Somalia, in particular homegrown administrations 
at the local, municipal, or regional level.
    In the interest of time, I have summarized my views in a 
short prepared statement, which I would ask to be entered into 
the record.
    Mr. Smith. Without objection, your testimony and that of 
all of our colleagues and witnesses will be made a part of the 
record, the longer versions.
    Ms. Bruton. Since October 2010, al-Shabaab has suffered 
severe military setbacks at the hands of African Union troops. 
The movement appears increasingly weak and preoccupied with 
internal power struggles. No analyst would suggest, however, 
that al-Shabaab's decline is related to the emergence of the 
Transitional Federal Government as a viable alternative to 
radical Islamist rule.
    On the contrary, al-Shabaab's decline has occurred just as 
international support for the TFG has visibly begun to wane, as 
international attention has strayed elsewhere, to the 
surprising events in Libya, Sudan, and Tunisia, and perhaps 
precisely because the Somali conflict has settled into an 
interminable and fruitless stalemate between AU troops and the 
radical al-Shabaab.
    Washington's measured response to the Kampala bombings, 
when it wisely refused to bow to regional pressure to pump 
additional money and troops into Mogadishu, has made it 
painfully clear that the Obama administration will not allow 
Somalia to become a quagmire for U.S. troops, or funds, or 
forces, that the utility of al-Qaeda investment there is 
therefore limited, and that the only real victim of the ongoing 
military stalemate is Somalia's endlessly suffering civilian 
population.
    In light of this analysis, I wish to emphasize the 
following five points.
    First, bolstering AMISOM to the desired level of 20,000 
troops will not end the stalemate, nor will it magically 
transform the TFG into a government worthy of international 
support.
    At best, aggressive U.S. backing of AMISOM could 
inadvertently refocus and re-energize al-Shabaab and its 
backers, and produce a new, more energetic, round of violence. 
The use of invasive and unpopular counterterror tactics could 
also have the same effect.
    Two, the State Department's new Dual Track strategy better 
reflects the political reality on the ground in Somalia, and 
has the potential to do less harm than previous policies. If 
pursued cautiously, the Dual Track strategy could provide the 
space and resources for a much-needed period of stabilization, 
normalization, and economic growth in Somalia.
    Normalization is not as grand a goal as state-building, but 
it is not a modest policy goal either. It is the shortest path 
to reconciliation, and to the emergence of a truly homegrown 
solution to the Somali crisis.
    Third, though less risky than a top-down state-building 
approach, decentralized strategies are not a magic bullet. In 
fact, most of the pitfalls that have been associated with top-
down state-building efforts can quickly reappear at the local 
or regional level.
    As international funding flows downwards, powerful spoilers 
will succeed in crowding out more legitimate voices, clan 
tensions can and will be aggravated, and the concerns of 
disempowered minority clans will often be drowned out.
    Fourth, the U.S. can minimize these risks of stoking 
clannism, corruption and conflict by actively pursuing 
stability, rather than governance, as a primary policy goal. A 
strategy of development without regard to governments will 
simply require the United States to prioritize the delivery of 
immediate benefits to communities over any attempt at 
institution-building or at picking political winners on the 
ground in Somalia.
    Fifth and last, in order for the Dual Track strategy to 
stand any chance of succeeding, the U.S. needs urgently to 
revisit its de facto decision to suspend humanitarian funding 
to the Somali territories controlled by al-Shabaab. Without a 
dramatic increase in humanitarian aid, tens of thousands of 
Somalis will die.
    But providing food to Somalia is not solely a humanitarian 
imperative. The failure to meet the most basic human 
requirements of Somalia's population conflicts with every 
precept of counterinsurgency strategy, and will undoubtedly 
deliver some desperate communities into the hands of al-
Shabaab.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Bruton follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Bruton, thank you very much for your 
testimony.
    Dr. Murphy, please proceed.

  STATEMENT OF MARTIN MURPHY, PH.D., VISITING FELLOW, CORBETT 
       CENTRE FOR MARITIME POLICY, KING'S COLLEGE, LONDON

    Mr. Murphy. Mr. Chairman, thank you for inviting me to give 
evidence on the issues confronting Somalia, and the 
implications of those issues for the United States and the 
wider international community.
    My expertise lies in the areas of piracy and maritime 
terrorism. I wish to focus on the problems of piracy in 
particular, and provide some insights into what is driving this 
economic crime, and its implications for U.S. Government 
policy.
    I have a prepared statement. I would like to summarize my 
views in eight points.
    First of all, piracy is a symptom, not a cause, of 
Somalia's current predicament. Dealing with it requires 
engagement on land. This necessity is recognized widely, and 
equally widely rejected because of fears that the Black Hawk 
Down experience will be repeated in some form.
    Piracy, however, is an economic crime that requires 
political and economic engagement if it is to be controlled. 
The concern is that piracy will become endemic the longer 
engagement is delayed. The number of direct and indirect 
stakeholders will grow, thus making the problem increasingly 
difficult to eradicate.
    Secondly, to avoid this, piracy needs to be crowded out 
using political and economic engagements in the areas of 
Somalia that host piracy operations, such as Puntland. Pirate 
rewards need to be decreased; economic alternatives need to be 
increased. The aim must be to change the incentives away from 
piracy and toward legitimate economic activity.
    Thirdly, the costs of economic alternatives need not be 
great. Whatever the cost, it will almost certainly be less than 
maintaining even the moderately effective naval presence that 
is operating off the Somali coast currently. Delay in 
initiating land-based development will merely increase the 
eventual cost.
    My fourth point is that the approach must contain a 
substantial bottom-up element. Development assistance is not 
aid. Investment in judicial capacity will be necessary, but the 
primary objective must be to encourage international commercial 
and diaspora investment on business terms. Somalis are a proud 
and independent people, not all of whom are looking for 
handouts.
    Fifthly, we must work with the grain of Somalia's messy and 
decentralized politics. It cannot be imposed. Local 
stakeholders need to take responsibility. Hopeless candidates 
should be discarded, but development providers should not aim 
on picking winners.
    Winners will emerge. Failure is to be expected. The 
successful will attract more support and will crowd out the 
less effective alternatives.
    Sixthly, the current policy of containment at sea is not 
politically and strategically risk-free for the United States. 
Piracy has a political significance that often exceeds its 
economic impact.
    The U.S. Navy is the ultimate guarantor of maritime 
security globally. When shipping comes under sustained attack 
without an effective response, as it has done off Somalia, then 
the U.S. commitment to maritime security is brought into 
question, and space is created for state and even non-state 
competitors to intervene to their political advantage.
    In a strategy paper published last December by the Central 
Committee of the Chinese Communist Party, for example, anti-
piracy operations were described as a way China could gain a 
foothold in a geostrategically vital region.
    Seventhly, in relation to containment, and possibly to 
avoid landward engagement, it has been suggested that the 
United States should outlaw the payment of ransom in cases of 
piracy, and to make this measure enforceable internationally by 
means of a United Nations Security Council resolution.
    Although it would eliminate piracy if it proved 
enforceable, which must be in doubt, it would take time to take 
effect, possibly as long as 2 or 3 years, during which time the 
hostages--currently there are in excess of 400--would be at 
risk.
    Most of those held come from developing countries which are 
America's friends, such as India, Bangladesh, the Philippines, 
and Indonesia. The outcry in those countries would be loud and 
politically damaging.
    So long as the U.S.-led international community is 
unwilling to either intervene or engage on land in Somalia, 
then the payment of ransom will remain the only way that 
hostages can be brought home.
    My final point is that if Yemen were to fail, maritime 
disorder in the region would likely worsen considerably. If 
both sides of the Gulf of Aden were to become launching sites 
for pirate and potentially terrorist attacks, it is possible 
that ship operators would demand a much higher level of naval 
protection.
    If that was not forthcoming, they may seek alternative 
routes, which would add to the costs of both finished goods and 
raw materials, including oil and gas. Economic development will 
crowd out Islamist extremism as effectively as it will 
undermine piracy.
    Once again, Mr. Chairman, thank you for the opportunity to 
be here today. I am happy to answer any questions you might 
have.
    [The prepared statement of Mr. Murphy follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Murphy, thank you very much for your 
testimony.
    Ambassador Shinn.

STATEMENT OF DAVID H. SHINN, PH.D., ADJUNCT PROFESSOR, ELLIOTT 
 SCHOOL OF INTERNATIONAL AFFAIRS, GEORGE WASHINGTON UNIVERSITY

    Ambassador Shinn. Yes, thank you, Mr. Chairman. The 
administration's Dual Track policy is essentially sound. The 
TFG is the only entity other than al-Shabaab with any claim, 
albeit a weak one, to speak for the Somalis in that part of 
Somalia.
    It extended its mandate from August 2011 to August 2012, 
and if it cannot make significant progress by the end of the 
extended mandate it is difficult to imagine that there will be 
any support left for it in the international community.
    The United States should indeed devote more development 
resources to Somaliland and Puntland. I would also argue that 
U.S. Government personnel should have more flexibility in 
visiting Puntland and Somaliland. The hard part of the two-
track policy is that which calls for reaching out to and 
supporting anti-Shabaab groups in south and central Somalia.
    The United States has not yet figured out how to reach 
these groups, because they are, after all, under al-Shabaab 
control. Whatever strategy is pursued, however, it must be 
Somali-driven and not have an outcome that, by supporting sub-
clans and small groups, results in the permanent Balkanization 
of the region.
    The Somali diaspora can be an important part of the 
solution to Somalia, but it is not united on a solution.
    On the issue of counterterrorism and military strikes, 
following 9/11 counterterrorism became the overwhelming U.S. 
policy in Somalia, and continues as a major factor. 
counterterrorism, while important, should not overwhelm U.S. 
and international community actions that might make a stronger 
contribution to diminishing the influence of al-Shabaab in the 
region.
    Military strikes need to be limited to high-value targets, 
where the intelligence is almost incontrovertible and the 
likelihood of collateral damage is virtually non-existent.
    It will be a mistake if these strikes become the U.S. 
default policy for countering al-Shabaab and other extremists 
in Somalia. A policy of military strikes in isolation does 
nothing to mitigate the root causes that led to the rise of and 
continues to generate support for al-Shabaab and similar 
organizations.
    On the issue of contact with al-Shabaab, a controversial 
topic, while there are rank and file members of al-Shabaab who 
have no ideological commitment and can be lured away. I just do 
not see anyone in a leadership position with whom 
representatives of the international community should be in 
dialogue. To the extent there is any role for a dialogue with 
al-Shabaab, it should be done by Somalis and not by foreigners.
    On the issue of piracy, I think probably as much has been 
said on that as is necessary, so I will pass over that. I would 
only add, though, that in addition to dealing with piracy per 
se, there is a Somali element of this that needs addressing, 
and that is for the international community to focus on 
ensuring that illegal fishing in the 200 mile economic zone of 
Somalia be dealt with, and the international community in the 
future not permit that to happen. There has been a bad history 
of that in the past.
    There have also been a few cases of toxic waste dumping in 
the waters off Somalia. I think there has been a lot of 
exaggeration on that point, but it is important that the 
international community do whatever it can to ensure that there 
not be toxic waste dumping.
    On the recognition of Somaliland, Somaliland should be 
rewarded for the relative stability that it has established and 
the fact that it has become the most democratic entity in the 
Horn of Africa. But I think any decision on the recognition of 
Somaliland should be led by the Africans, either the African 
Union collectively or individual African countries.
    And finally, I would like to make a plea for greater 
consideration of regional economic integration in the area. I 
think this is a long-term goal that has major implications for 
the future.
    Somalia is one of the most conflicted countries in the 
world and has been for a long time. I think if it is possible 
to identify ways to increase regional economic integration for 
all of the Horn and East African countries, it has the 
potential to mitigate significantly conflict in this part of 
Africa.
    I thank you very much, Mr. Chairman, for hearing my views.
    [The prepared statement of Ambassador Shinn follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ambassador Shinn, thank you very much for your 
testimony and for your service.
    Let me just ask a few questions. You mentioned, Dr. Murphy, 
that there are some 400 hostages. I wonder if you could tell 
the subcommittees, how are they treated? What is the average 
stay of incarceration? I don't know how else to explain it. Are 
they tortured, any of these individuals?
    Mr. Murphy. Thank you, Mr. Chairman. Yes, there are about 
450 hostages currently. The average stay has increased. It is 
probably around 5 to 6 months now, and that is all to do with 
the time it is now taking to negotiate the ransom payment.
    There have been a number of stories of bad treatment. I 
think it would be unfair to be that they have had pleasant 
treatment heretofore, but it has generally been safe. There has 
been all sorts of reports of their food being prepared 
correctly, and so on and so forth.
    But we have, as I said, had some reports over the last 6 
months or so of pirates--of their being treated badly, a number 
instances of heads being submerged below the water, hostages 
being dragged behind ships, mock executions, and so on and so 
forth.
    What is difficult, really is to ascertain what the actual 
evidence for that is. We know it has occurred, but is it 
systematic? There doesn't seem to be a systematic pattern 
behind it. It seems to be related to one or two cases. However, 
there is concern that, partially because of the drought and 
partially because of general migration within Somalia, the 
Somali pirates are attracting--or the Somali pirate enterprise, 
to put it that way, is attracting more people from the interior 
who don't have an understanding of the sea, or possibly an 
understanding of the business model that has been heretofore so 
successful for the pirates, which is essentially a peaceful 
one.
    So it is a situation one has to keep under review. At this 
stage, I think it is important not to exaggerate it, but it 
does seem to be occurring, and what we need is better and more 
reliable information upon which to make a judgment.
    Mr. Smith. Have there been reports of sexual abuse? And are 
women among those who have been detained?
    Mr. Murphy. There was one woman detained. I think it was on 
a Ukrainian ship. There was no report of any sexual harassment.
    Mr. Smith. Are shipping companies purposely keeping women 
off those ships?
    Mr. Murphy. There are very few women in the international--
--
    Mr. Smith. But there are some?
    Mr. Murphy [continuing]. Crewing business. Yes. They tend 
to be officers, not in the crew, but it is a very, very small 
proportion. I don't know if there is any particular policy to 
keep women out of the Arabian Sea theater.
    Mr. Smith. With regards to when they are repatriated, what 
has been the experience of those men, and the woman, once they 
are back home? Are there any signs of PTSD, or is anybody 
monitoring their psychological or physical health once they are 
freed?
    Mr. Murphy. Given the way that the international shipping 
industry works, I should imagine there is very little 
monitoring of what happens afterwards. There is no hard 
evidence as to what is happening to these people, and that is 
partly because of the way the international shipping industry 
does work, which is to say it tends not to want crew or 
officers to be interviewed. People tend to be kept away from 
the press. We don't know, really, how these people are dealing 
with it.
    Historically speaking, the vast majority of people who have 
been pirated never went to sea again unless they had to, and 
that usually meant, clearly, the lowest-paid portions of the 
crew.
    Many of the officers, historically, did not go back to sea 
again because the trauma was so significant, but we don't have 
particular surveys as to what has happened to the people who 
have been held in Somalia.
    Mr. Smith. Let me ask Ambassador Shinn, if you could, you 
mentioned that the Somali Diaspora in America can be part of 
the solution in Somalia. But while remittance has maintained 
Somali families, young Somalis in some number are joining al-
Shabaab on the battlefield.
    Do we have any sense as to how many Somali emigres have 
gone back and are now a part of the fighting? And those who are 
being radicalized here, what is their game plan? Do we have any 
sense of their hostility or lack of it toward the United 
States?
    Ambassador Shinn. Well, we have a fairly good idea of the 
numbers who have gone back and joined al-Shabaab. And the last 
figure I saw was around 30 from the United States. There are 
other members of the Somali Diaspora in other countries who 
have gone back.
    Larger numbers, I believe, have gone back from the United 
Kingdom. I saw a figure of around a dozen from Sweden, maybe 
five from Denmark, and small numbers from other European 
countries. So the total may very well be a couple of hundred by 
the time you add them all up.
    What I have not seen is any number of Somalis in the 
American Diaspora who have, as you say, been radicalized, or 
who might have sent money to al-Shabaab.
    The FBI may have some better numbers on money transfers, 
but that is very hard to follow, because most of that money is 
sent back by what is called the Hawala organization, where you 
literally can go into a large Somali mall in downtown 
Minneapolis, which I have done, and where there will be a 
little office where a Somali-American can deposit $100--
actually, $105. There is a $5 commission.
    That $100 will just show up, almost miraculously, anywhere 
in Somalia several days later. Someone will literally deliver 
it to the intended person, and it is very, very hard to track 
this sort of thing.
    So I don't think anyone really knows with any certainty the 
degree to which al-Shabaab has benefitted by financing from the 
Diaspora, but it definitely has. The numbers just aren't there.
    Mr. Smith. Ms. Bruton, you had faint praise for the Dual 
Track. You said it was less harmful than the previous policies. 
And I am wondering if you and the other panelists might want to 
speak to how well you think the Dual Track, especially track 
two, is progressing.
    Ms. Bruton. I think that the Dual Track policy has really 
yet to get off the ground. In theory, it could work very well, 
and I specified that I think that will require the U.S. to use 
a very light footprint, and not to use the Dual Track strategy 
as an opportunity to pursue political ends at the local level. 
If the U.S. pursues political ends on the ground, I think that 
the results will be very similar to what we have seen in 
Mogadishu.
    I believe that the Dual Track policy has been held up by 
the tremendous difficulties that are involved in formulating a 
decent strategy for engaging at the ground level, particularly 
in south central. And I know that USAID and other entities are 
working very hard to come up with such a strategy, given the 
evolving political situation, and I think particularly given 
the fear that some of this funding could ultimately go into the 
hands of al-Shabaab.
    But I think that the dialogue needs to move much more 
quickly. Most people who have worked in Somalia will tell you 
it is not anywhere near as difficult as people think it is. If 
you take a few precautions, it is possible to do amazing, 
amazing projects with relatively little funding. And I am 
personally very hopeful that Dual Track will be able to 
accomplish some of those things.
    Mr. Smith. Would anybody else like to--Dr. Pham?
    Mr. Pham. I would just add to that, I think that we need to 
also flesh out the Dual Track strategy. Conceptually, I think 
it makes a great deal of sense, and it certainly is a move in 
the right direction.
    But we need to flesh it out, both in terms of distinctions 
within the secondary track between entities that are 
approaching quasi-state status, like Somaliland and Puntland, 
and more grassroots organizations which, although they may 
aspire to that, are a very long way from that. So I think we 
need to distinguish between that.
    And secondly, we need to be able to put resources--it is 
good to say, ``We are having a Dual Track strategy,'' but 
unless development assistance and other things flow to 
privilege that, it remains just a rhetorical concept. Thank 
you.
    Mr. Smith. Ambassador Shinn.
    Ambassador Shinn. Mr. Chairman, if I might add, there are 
two particularly sensitive and important areas where one would 
like to see the Dual Track policy take root. One that I alluded 
to earlier, and that is south central Somalia, the areas that 
al-Shabaab controls.
    It clearly is very difficult to work there. One of the 
things we are going to find out in the coming weeks, as the 
United States Government tries to deal with this horrific 
drought that was talked about earlier today in this hearing, is 
the degree to which one can actually provide food in areas 
controlled by al-Shabaab.
    Interestingly, al-Shabaab has said in the last 48 hours or 
so that it will now let international organizations and non-
governmental organizations into that area to provide food. They 
threw them all out earlier.
    But what we haven't heard yet are the conditions for those 
organizations to go into al-Shabaab territory. In the past, al-
Shabaab organization has tried to extract money from these 
groups, either assessing fees or taxes, or insisting that 
anyone who works in their area use al-Shabaab transportation 
companies. This is money that ultimately ends up in the coffers 
of an organization that is an enemy of the United States.
    So it is a very, very tricky situation. On the one hand, 
you don't want Somalis to be dying in this area. On the other 
hand, you don't want to be supporting, directly or indirectly, 
al-Shabaab.
    The other area where the whole Dual Track system is 
critical is in the pirate-held ports along the Puntland coast. 
I think this is an area where we need to be a little more 
innovative as to how we deal with it. Right now, we are 
entirely focused on spending between $1 billion and $2 billion 
a year on a huge naval effort in the Indian Ocean, and it 
clearly has not worked.
    Maybe it is time to see if there is any way of working with 
local communities--elders, religious leaders, community 
leaders, et cetera--in the existing pirate port areas, going in 
with some ideas for development assistance, the international 
community collectively, not just the United States, and seeing 
if there is any way to convince the elders that, look, there is 
another way here than just existing on the basis of pirate 
money.
    This would be hard to do, because there is no way to 
compete with the amount of money that the pirates obtain, but 
you might be able to find some good-minded local leaders who 
would be willing to look at another way of creating jobs and 
employment, and try to reconstruct the economy there.
    Mr. Smith. Yes, Dr. Murphy?
    Mr. Murphy. Mr. Chairman, I obviously endorse my 
colleague's comments about the need for economic development in 
the piracy-prone areas. However, I think it is important that 
we do not couple development aid simply to the fact that you 
have been a bad boy as a pirate. The economic aid has to be 
spread much more even-handedly, otherwise we are rewarding 
malfeasance.
    Mr. Smith. Let me just ask you a couple of final questions, 
then I will yield to my good friend, the vice chairman of our 
subcommittee, Mr. Fortenberry.
    Ms. Bruton, you mentioned earlier that it is time to 
revisit the territories that are not getting the kind of 
humanitarian aid that they desperately need. As a matter of 
fact, Ms. Lindborg suggested that some 61 percent of the unmet 
need is in those areas.
    She also pointed out that there is about a $200-million gap 
in terms of what is needed and what is certainly not there yet. 
And I wonder if any of you might like to speak to that gap, and 
whether or not you are confident the U.S. and our other donors 
will stand up and provide the sufficient amounts of money.
    Let me also, if I could, address human trafficking. The 
human trafficking report, the TIP Report, has just been 
released a week ago. And it points out that, as in previous 
years, trafficking victims were primarily trafficked within the 
country, from Somalia's south and central regions to Puntland 
and Somaliland regions. And it points out that the government 
made no known effort to prevent trafficking in persons.
    And I am wondering if the international community, the 
government, the TFG, in your view, are even aware that this 
problem is going unattended-to. And obviously, it is usually 
women and children who are the victims of human trafficking.
    And finally, Dr. Pham, you spoke about the African Union 
deployment, and pointed out that that is one of the rallying 
cries against the government. I am wondering, if not the AU 
troops, who? I mean, who would provide that necessary lifeline 
or protection, minimal as it may be, but certainly very 
hazardous for those troops who are deployed there.
    And I do have a question, if you could, about the whole 
issue of rules of engagement. Do the AU troops have a 
sufficiently robust mandate to protect? And secondly, on the 
high seas, is our Navy, are the navies of other interested 
parties sufficiently robust in their efforts, as well?
    So those questions.
    Ms. Bruton. Thank you, Congressman Smith. I am very, very 
grateful to have the opportunity to address this question, 
because my memory of the suspension of U.S. humanitarian relief 
differs significantly from some of my colleagues.
    As I recall, it is certainly true that al-Shabaab was 
attempting to collect some fees from humanitarian agencies. 
Typically, those fees were about $20,000 every 6 months. Forty 
thousand dollars a year for every large humanitarian NGO.
    That is not a huge amount of money, particularly when you 
contrast this with the amount of funds and weaponry that al-
Shabaab has derived from, for example, the sale of weapons by 
TFG troops, who have been trained by the United States and 
other European and western donors.
    Al-Shabaab can be very difficult to work with. They have 
always been difficult to work with. But the United Nations, 
ICRC, and other humanitarian agencies have almost always 
succeeded in gaining access to the territories after 
negotiations.
    There are some subsets of al-Shabaab that certainly will 
refuse to allow humanitarian actors into their territory if 
they perceive them as political rivals. But I think that those 
instances are fairly few and far between, and under the current 
circumstances, certainly, I think it is very important that the 
United States do everything possible to ensure that 
humanitarian relief flows to those many, many communities that 
are not receiving any aid at all.
    We can't allow our political ideas about what al-Shabaab 
may or may not do in the future to allow people to starve 
today.
    Mr. Pham. To pick up on the questions concerning the 
African Union Mission in Somalia, AMISOM, one has to 
acknowledge that its performance has improved a great deal in 
the last year, partially because of increased training by U.S. 
and European Union countries, partially because of a change in 
command.
    The current commander, Major General Nathan Mugisha from 
Uganda, certainly is making a valiant effort at it. The problem 
is in resources, both in personnel and ultimately in political 
resources.
    Currently, there are just shy of 10,000 African Union 
Forces out of an authorized strength of 12,000. Earlier we 
heard testimony from Ambassador Yamamoto that it seems unlikely 
anyone is going to come up with those 2,000 to make up the 
force.
    But even if the 2,000 were found, we would have 12,000 
troops with a mandate to do something that a decade and a half 
ago, against an insurgency that was nowhere as ideologically 
committed or as well armed and trained as al-Shabaab and the 
Islamists, the U.N. failed with 37,000 troops. It is beyond 
delusional to think that 12,000 is going to pull it off.
    And if you look at the numbers, right now AMISOM has 
roughly one soldier for every 500 people. The surge in Iraq, 
when that turned the tide, the ratio there in the 
counterinsurgency was one U.S. soldier for every 187 Iraqis. So 
they are woefully under-resourced.
    Beyond mere troop strength, however, you also have the 
issue of political agenda. You may be able to gain space, as 
difficult as it is, but in order to hold that space, one has to 
have a political solution.
    The government has to be ready to offer services, goods to 
people to hold their loyalty. And what we have in the 
Transitional Federal Government is an outfit that is good for 
one thing, which is robbing, stealing the resources they have.
    In the last two fiscal years, the government offices have 
stolen 96 percent of the bilateral assistance. We have a Prime 
Minister, until recently, who was a U.S. citizen. During the 
period when he was in office, the payroll account for his 
office was 864,000--he was only in office about 9 months--of 
which only 216,000 can be accounted for. 648,000 has simply 
disappeared just from one account.
    That is not the type of political figure or government that 
is going to inspire people to shift away and, as much as they 
dislike al-Shabaab, they are not going to shift their loyalty 
to an institution like this.
    And so we have to acknowledge what AMISOM is improving. It 
has certainly gotten better. But ultimately, it cannot hold 
without a political strategy.
    Mr. Fortenberry [presiding]. Let me intervene here, and 
thank you all for your patience. You have come at a difficult 
time, as we have got defense authorization and defense 
appropriations votes occurring, and we have got people in and 
out.
    So I apologize that I haven't had the benefit of the 
fullness of the testimony today. But before we conclude, let me 
thank you all for coming, and also just pull back a little bit 
and ask a broader question, if you care to answer.
    When the people of the United States think about Somalia, 
they will have the recollection of a loss of, if I recall, 23 
soldiers in the 1990s. They will see piracy. They will have a 
notion that this is a, perhaps, ungoverned space, if you will, 
that is ripe for the potential for terroristic landing, 
engagement, and potentially expansion.
    Then, on top of that, there would be a broader concern, in 
terms of the humanitarian problems that some of you have 
addressed in the brief time that I am here.
    So I think it is important to step back and say, for a 
moment, why--or to point out, why is this strategic? Why is 
this important, that Somalia at least begin--at least we have a 
semblance of a vision for a transition of Somalia to a 
stabilized--a place with a stabilized government that has the 
potential to at least keep out the threats of those who would 
land there and expand for terroristic purposes, or affiliate 
with other terroristic organizations?
    Explain why this is important, please.
    Ambassador Shinn. Mr. Chairman, let me answer that 
question, if I may. I have worked on Somali affairs literally 
going back to the 1960s, off and on. And I think what the 
United States is facing--and I believe you quite aptly 
described the American perception of Somalia today. I think you 
are right on target.
    The problem is that you have an entity which has been a 
failed state since 1991. If that entity kept its problems 
entirely to itself, there probably wouldn't be a great deal of 
concern in the United States about what was happening there.
    But it has gone far beyond that, now. Not only is it 
harming the Somali people themselves--and there are some 
Americans who inherently are interested in the Somali 
population, particularly the Somali-American population. So 
there is that direct interest.
    But now that it has gone so far beyond the borders of 
Somalia, with piracy, with terrorism that has extended outside, 
with even American links to terrorism in the form of Somali-
Americans, some 30 of them or so who have been directly 
implicated, and the fact that it is impacting the stability of 
neighboring countries which are allies of the United States, 
particularly Ethiopia and Kenya, it is an issue that I think is 
properly of concern to the United States Government. It is in 
our interest to try to do something to help create a government 
that can, in fact, control the country.
    And until that time comes, my guess is these problems are 
going to get worse, not get better. I think that, essentially, 
is the rationale for it.
    Mr. Murphy. Thank you. I approach the issue of Somalia very 
much from the sea, and my concerns about the International 
Maritime Commons, freedom of navigation, our ability as a 
nation to maintain, if you like, the way of life that we have 
had for the last 200 or so years.
    I see the Somali pirates as presenting a major challenge to 
that international maritime security regime. I have argued that 
it possibly represents the most significant challenge to the 
peaceful use of the sea since the Second World War.
    How this affects the United States is, the United States is 
the ultimate guarantor of the maritime security system, and as 
I argued in my testimony, where that is challenged and is not 
responded to, that gives opportunities for competitor states.
    And I drew an example of a statement recently made by the 
Central Committee of the Chinese Communist Party, which 
indicates that they are prepared to take advantage of 
weaknesses in this area specifically to gain advantage for 
themselves in what they view--and we should also be viewing--as 
a geostrategically very important area.
    In fact, if anything, I am more concerned about that than I 
am, necessarily, about the now-you-see-it, now-you-don't 
changes in the terroristic threats in the region.
    Ms. Bruton. I have argued many, many times over that the 
U.S. has a very limited set of reasons for engaging on the 
ground in Somalia. For a long time it has been common sense to 
assume that because it is a security vacuum, it is a terrorist 
threat.
    The reality is that after the U.S. pulled out of Somalia in 
1995, after the Black Hawk Down incident that you have alluded 
to, Somalia became more stable, more economically viable, and 
less threatening than it had ever been in the past.
    In 1998, 1999, 2000, 2001, 2002, 2003, 2004, there was 
virtually no discernable terrorist threat in Somalia at all. In 
2006, the Counter-Terrorism Center at West Point wrote a report 
in which it said that Somalia was--I think the term they used 
was ``fundamentally inhospitable to foreign terrorist groups 
like al-Qaeda.'' Basically arguing that it was an inherently 
bad place for terrorists to work.
    Obviously now there are terrorists in Somalia, but the 
thing that changed was not the Somalis. It was the level of 
U.S. engagement in the country, which dramatically increased 
starting in 2004. The reason for that stepped-up interest on 
the part of the United States was nothing to do with what was 
happening on the ground in Somalia, and everything to do with 
9/11.
    I am all in favor of caution, and erring on the side of 
caution when we are talking about counterterrorism, but in 
Somalia our preemptive efforts have tended to backfire in 
really terrible ways, and I think that should be the source of 
most U.S. thinking on Somalia now.
    Not, ``If we intervene, is there a chance that we can make 
things better?'' but, ``If we intervene, what are the odds that 
we will actually wind up making things significantly worse 
because of unforeseen consequences?''
    And when I look at the counterterror efforts that are 
taking place there now, I am equally concerned that they are 
being driven not by events on the ground in Somalia, which are 
actually more or less moving in our direction, but by things 
that are happening in Afghanistan, in Pakistan, in Yemen.
    And I simply urge this subcommittee, and these 
subcommittees, to let Somalia guide your Somalia policy, rather 
than any other country.
    Mr. Pham. Mr. Vice Chairman, I echo my colleague's 
sentiments. In answer to your question, I think we need to look 
at not only the threat that emanates from there, which does 
affect our way of life, the freedoms we enjoy, commerce, 
threats to navigation, the very real threat now that--
irrespective of how they got there or when they got there, the 
fact that al-Shabaab has been hospitable to other terrorist 
movements and extremist groups, allowing them to operate in 
Somalia, becoming sort of a hodge podge of characters who have 
gathered there, introduced to you, including--I worry a great 
deal about--introduced to these 30 Americans and others with 
European and Australian passports, who now pass through there.
    For all those reasons, we need to be concerned. But we also 
need to be concerned because we take for granted the areas in 
Somalia--the country itself as a whole is not that chaos that 
we often imagine. Rather, specific regions are, mainly the 
south central areas where the conflict is.
    The other regions--Somaliland has been actually, as 
Ambassador Shinn said earlier, the most democratic state 
actually in the region. Puntland has its problems, some of 
which are of its own making, because of the piracy, but 
relatively speaking it is stable.
    But we take that for granted at our own peril. Somaliland 
will not remain the way it is forever if it is left in this 
limbo, neither engaged by the international community nor part 
of Somalia.
    Puntland, their money buys a great number of things, 
including at times governments and elders and others who 
accommodate pirate action. But we have to avoid the moral 
hazard Dr. Murphy spoke about. We also need to realize that 
there is no solution to piracy, without some engagement there.
    So we need to hold what we have, even if we recognize the 
limits of the positive action we can do. Thank you.
    Mr. Fortenberry. Well, your answers are very helpful in 
terms of pulling back and seeing the larger picture, as to both 
the reasons for concern here, whether they manifest themselves 
in maritime stability, the potential spread of terrorist 
activity into the neighborhood in the Horn of Africa, as well 
as things that transcend that, such as humanitarian concerns 
for the people.
    It seems as though we have some contrarian views here. And 
again, not having the benefit of your full testimony earlier, I 
appreciate you raising some different perspectives in that 
regard.
    If we could, before I conclude, let us just go back to one 
key point that you raised, Ambassador Shinn, regarding the 
spread of al-Shabaab into the surrounding neighborhood, or its 
affiliation, potentially, with other groups who could leverage 
this--I don't want to quite call it ungoverned space, but the 
semblance of governed space, for destabilization purposes, 
ideological and destabilization purposes.
    Ambassador Shinn. I would be happy to do that. I would 
agree with Bronwyn on one part of her comment on this, in that 
it is quite true that if you go back to the early 1990s, we 
have documentary evidence, that is documents from al-Qaeda that 
were collected by the United States Government, and they are 
now translated, declassified, and available at West Point.
    They do point out that al-Qaeda had a horrible time getting 
engaged in Somalia back in 1991/1992. They ran into the same 
problem that everyone runs into with Somalis. Somalis are very 
individualist; they are very hard to get along with, and it is 
very hard to get them to do anything. Al-Qaeda was tearing its 
hair out. But at some point along the way, al-Qaeda did make 
some recruits, did have some progress in Somalia, and----
    Mr. Fortenberry. Ms. Bruton pointed to events in 2006, 
specifically citing intensified U.S. engagement as the reason 
for that. Do you agree with that?
    Ambassador Shinn. Only partially. The next step in all of 
this is that you go to 1998, the bombings of the U.S. Embassies 
in Nairobi and Dar es Salaam, and it turns out that several of 
the key al-Qaeda actors had support from Somalia during that 
planning period, and they took refuge, three of them, in 
Somalia.
    All three happen to be dead now. It took a long time to 
track them down, but they are now all gone. The point is, that 
at some point between the very early 1990s and the late 1990s, 
there began to be a stronger connection between Somalia and the 
whole terrorist network.
    That was before the United States got off on its 
counterterrorism preoccupation after 9/11. I think I would 
agree with Bronwyn that after 9/11 there was an excessive focus 
on counterterrorism, and that did contribute, to some extent, 
to the problems that you have in Somalia today.
    But the problem was well underway before that, and I don't 
think that part of it can be attributed to U.S. 
counterterrorism policy at that time.
    So moving it all the way up to the present, what you have 
is a clear link between al-Qaeda and al-Shabaab, not 
operational control of al-Shabaab but a link to it. There has 
been training provided. There has been, probably, minimal 
funding.
    Most of al-Shabaab is funded internally in south and 
central Somalia, by taxing and by controlling the port at 
Kismayo, where it makes tons of money with all the shipments 
going through Kismayo.
    But they do get some outside money. They have also clearly 
established in the last year or so rather close links with al-
Qaeda in the Arab Peninsula, and this is a very scary 
organization; this linkage is of real concern to the United 
States.
    Mr. Fortenberry. Is that purely ideological? Is that 
religious ideology?
    Ambassador Shinn. It is hard to know whether it is strictly 
ideological, or whether it is a marriage of convenience, to 
some extent. There have always been long-term links between 
Yemen and Somalia. They go back centuries. So this is nothing 
new, that they are visiting each other's countries. The fact 
that you now have the two terrorist groups linking up is 
different, and that is what is of great concern to the United 
States.
    I think there is a lot we don't know about this link yet, 
because it is a relatively new connection.
    Mr. Fortenberry. Could you address the magnitude of this?
    Ambassador Shinn. I really can't. I am afraid that I would 
be getting into an area that, since I don't have access to 
classified information, that I may simply be getting it wrong.
    But I do know from the anecdotal information that is out 
there, including the announcement just the other day in the 
Washington Post and the New York Times of the Somali who has 
now been brought to the United States for trial, he was picked 
up commuting between Yemen and Somalia, and according to the 
press reports he was in contact with AQAP.
    This is a clear piece of evidence of it; but that in and of 
itself doesn't prove a lot. I have also heard from African 
Union personnel that they are greatly concerned about the link 
between AQAP and al-Shabaab, and I think it is very worrisome.
    So this has gone beyond Somalia. We also have the bombing 
by al-Shabaab in Kampala, Uganda, just a year ago this month. 
There are links that are now starting to extend beyond the 
borders, and this is what should concern the United States.
    Mr. Fortenberry. Well, there is a refugee problem in Kenya 
now, as well.
    Ambassador Shinn. There is that also.
    Mr. Fortenberry. One more question. Back to the strength 
and the potential for the African Union for stabilization 
purposes. Minimal? What is the trajectory here?
    Mr. Pham. I think the African Union Forces made--when they 
went in there, they went in without a clear strategy other than 
a broad mandate to be peacekeepers and to protect this 
government.
    For most of the last 4 years, until about maybe 9 or 10 
months ago, their chief duty was literally the physical 
protection of this so-called government that was confined to 
the presidential villa and occasional mad dashes to the 
airport.
    Mr. Fortenberry. But they are concentrated in one place?
    Mr. Pham. In one place. Since then, they have made some 
expansion, but they don't have enough to hold that. That 
presupposes a trained Somali national security force, but those 
have largely--eight out of nine have deserted, so that is not 
coming.
    Secondly, you need a political strategy. That is clearly 
absent, whether you give them a year or what. Unless that 
develops, that is going to--so we have to rethink the political 
goals, because, you know, Clausewitz said, ``War is the 
continuation of politics by other means.'' We haven't figured 
out what political objectives, achievable ones, we want these 
warriors to do. And I think it does them a disservice.
    If I could just return, sir, just one moment to the earlier 
discussion of al-Shabaab, the anecdotal evidence that 
Ambassador Shinn alluded to is there are quite a number of 
links going back, and it is both ideological and of 
convenience.
    Two years ago, we had the suicide bombing which took the 
lives of a number of South Korean tourists in the Hadramut. The 
fellow who carried out that attack, a Haramuti, we have from 
both intelligence and his martyrdom video, he went to Somalia, 
was trained there, came back, and carried out his attack.
    It goes both ways. Earlier, the Yemeni extremists had 
helped rescue al-Shabaab when they were on their last ropes 
after the Ethiopian invasion, when the Islamists made the 
mistake of engaging the Ethiopian defense forces out in the 
open, and were pretty much destroyed.
    So there has been a back and forth, it continues. And what 
is worrisome is al-Shabaab's reach into the Diaspora community. 
Clearly it has that reach, and if it provides that facility, if 
you will, to the Yemenis and other al-Qaeda groups, I think we 
are in for some serious trouble.
    Mr. Fortenberry. Address that issue, though, of motivation. 
Is it religious ideology? Some strange nationalism that we are 
not able to identify clearly with? Or is it something else? Is 
it just convenience?
    When you are talking about it spreading to the Diaspora, 
then I assume it would have to be based on primarily religious 
ideology.
    Mr. Pham. Yes. And it is a mixture of religion and 
nationalism on the Somali side, but the ideology is clearly 
there at the leadership of al-Shabaab. Most of them are 
veterans of jihad in South Asia. They have been to Kashmir, 
Pakistan, Afghanistan.
    Some of the middle commanders are actually foreigners, so 
there is----
    Mr. Fortenberry. Do you have an idea of the magnitude, 
size, of this problem?
    Mr. Pham. Well, the size of al-Shabaab shifts, because you 
have got the core group, and then you have got militias that--
clan militias that switch allegiances very quickly depending on 
circumstance and happenstance.
    The number most analysts at least play around with, and it 
is only a guess, is probably in the low thousands, maybe up to 
five. But at times, they can capture the loyalty of certain 
clans or sub-clans, because each sub-clan has its own armed 
force, and those can be purchased. And at other times, they can 
purchase whole units, even from the Transitional Government's 
own forces.
    Ambassador Shinn. Congressman Fortenberry, if I might just 
add to that, I have done a lot of research on the issue of 
particularly the foreign element in al-Shabaab, and the 
strength of the organization.
    No one knows, other than al-Shabaab, with certainty how 
many armed followers it has in the country. The low estimate is 
about 4,000. The estimates go up to about 6,000 or 7,000 of 
armed persons at any given time in the country.
    The more interesting part of the equation, though, is the 
number of those who are not local Somalis from inside Somalia 
itself. And there is pretty much agreement that in terms of the 
true foreigners, that is those who have no Somali ethnic 
connection, not from the Somali Diaspora, the number is 
probably around 300.
    We used to say 200. We think it may have gone up a bit. 
Maybe 200 or 300. So not a huge number of true foreigners, that 
is, Pakistanis, or folks from the Swahili coast. Actually, most 
of them do tend to be from the coast of Kenya and Tanzania, and 
other parts of Africa, from India, from Bangladesh, from the 
Arab countries. They will constitute that 200 or 300.
    Then there is another category of Somalis from outside 
Somalia who have a foreign passport, who have lived for either 
all or much of their life somewhere outside of Somalia, 
including the 30 from the United States that we talked about.
    And that number could be as high as 1,000 or so. Again, the 
numbers are very, very fuzzy, but it is a fairly significant 
number. And that is what we are facing with al-Shabaab. 
Primarily, Somalis from Somalia, and then this group of 1,000 
or so from the Somali Diaspora, or with some Somali ethnic 
link.
    And then you have this real hardcore group, which is very 
ideological and very committed and ruthless. They are the folks 
who come from other jihad battles, or they come from the 
Swahili coast of Kenya, but they are not Somalis.
    Mr. Fortenberry. Is there complicity with al-Shabaab in the 
piracy issue, or is that random criminal activity?
    Mr. Murphy. That has been searched for, and continues to be 
searched for. The links appear to be certainly not 
motivational. Pirates are criminals that are inspired simply by 
the need for money. Al-Shabaab, certainly in the core 
leadership, is certainly ideologically motivated. I think there 
is a penumbra around that that, as Dr. Pham has talked about, 
that they are allies of convenience, that they will come and 
go, and they are as likely to be motivated by access to money 
as anybody else. So the situation is not crystal clear.
    There seems to be--clearly some financial transactions have 
gone on between the pirates and al-Shabaab. Exactly how much 
money is involved is unclear, but they are almost certainly 
going to be, really, a version of a shakedown, a version of 
extortion.
    In the same way that the pirates are paying, if you like, a 
fee or taxes to clan leaders or political figures in various 
parts of Puntland and the north of the south central region, 
al-Shabaab appears to have got in on the act and are squeezing 
some of the more southerly pirate groups. So some money is 
probably migrating across.
    Where exactly that money is going within al-Shabaab is 
unclear. Is it staying within some of these peripheral groups, 
or is it going into the center? Somebody might know; I 
certainly don't. And it is not in the open sources.
    Ambassador Shinn. If I might just add, Congressman 
Fortenberry, I agree with everything that Dr. Murphy said. 
There is a fascinating reporting piece, a rather long piece, 
that Reuters did yesterday, that claims to document payments 
that al-Shabaab has extracted from various pirate 
organizations.
    It is about the most thorough, allegedly documented, piece 
of reporting that I have seen, and I would be happy to share it 
with your staff.
    Mr. Fortenberry. Thank you very much.
    Ms. Bruton. If I may point out----
    Mr. Fortenberry. Yes.
    Ms. Bruton [continuing]. It concerns me somewhat that we 
are using the word al-Shabaab as if it refers to a cohesive 
entity with a single ideology. I think it is very important to 
point out that probably 90 percent or more of the members of 
al-Shabaab, the people who call themselves al-Shabaab from day 
to day or once a week, are motivated by money. So far we think 
that the pirate connection is largely motivated by money.
    And it is also important to remember that al-Shabaab, in 
addition to having a money motive, has a local agenda, which so 
far has been shown to vastly supersede any international agenda 
that it has.
    When we talk about these 30 Americans who have gone from 
Minnesota and other parts of the U.S. to fight for al-Shabaab, 
the vast majority of them went in 2007, during the Ethiopian 
occupation, when there were rampant reports of Ethiopian troops 
raping Somali women.
    The number of recruits that have gone from the U.S. to join 
al-Shabaab since the Ethiopian invasion ended is quite small.
    I am also concerned when we talk about potential links with 
al-Qaeda in the Arabian Peninsula. Of course it is a worry, but 
I think that there is a big difference between being worried 
and having actual proof.
    In 2006, the United States stated that the Union of Islamic 
Courts, which was then in control of Mogadishu, was being run 
by members of al-Qaeda. That turned out to be an absolutely 
inaccurate claim, but we used it to justify the Ethiopian 
invasion, which then triggered all of these migrations from the 
U.S. to Somalia. It brought al-Shabaab to power.
    Basically, the risks, I think, are much higher here than we 
are allowing. I think that the U.S. has had a much more direct 
role in stimulating the terrorist threat from Somalia than we 
feel comfortable admitting. And in particular, I think that we 
should really keep in mind that al-Shabaab has a motive to 
associate with al-Qaeda that has nothing to do with ideology 
and everything to do with dollar signs.
    Mr. Fortenberry. Clearly a complex situation in a place 
where governing structures are weak or collapsing, and other 
forces, whether that be nationalistic, religiously ideological 
motives, and criminal activity are filling the space, with the 
potential for exporting of those activities, which should be a 
worry, mitigated by some of the concerns that you raise that 
might round the edges of the conversation.
    So if you all accept that, I think that is as fair a 
summary as I can make of what has been said here. But it has 
been very helpful to me to hear your testimony on what clearly 
is a complex situation.
    But to raise awareness of this for the American people 
through this hearing, I think, has been an important outcome. 
And I appreciate your time and your willingness to testify 
here, as well as your background and expertise on these issues.
    So with that, if any members of the committee have further 
questions, they will submit that to you in writing. And the 
committee is now adjourned.
    [Whereupon, at 4:02 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
